App. 1
IN THE UNITED STATES
DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF GEORGIA
WAYCROSS DIVISION
BILLY DANIEL
RAULERSON, JR.,

*
*
*
Petitioner,
*
v.
*
*
CARL HUMPHREY, Warden,
*
Georgia Diagnostic Prison,
*
Respondent.
*

CV 505-057

-----------------------------------------------------------------------

ORDER
-----------------------------------------------------------------------

(Filed Sep. 30, 2013)
Before the Court in the above captioned case is
Georgia death row inmate Billy Daniel Raulerson, Jr.’s
petition for writ of habeas corpus pursuant to 28 U.S.C.
§ 2254. (Doc. no. 1.)
I.

Background

A. Factual Background
Over the course of two days in 1993, Billy Daniel
Raulerson, Jr. (“Raulerson”) killed three people in and
around Waycross, Georgia. On May 30, 1993, Raulerson
shot and killed two teenagers parked near a lakeside
“lovers’ lane,” Jason Hampton and Charlye Dixon. The

App. 2
next day, Raulerson shot and stabbed Gail Taylor to
death. Each victim had been shot multiple times with
a .22 rifle, and Raulerson’s semen was found in Dixon’s
rectum. Raulerson v. State, 268 Ga. 623, 623 (1997).
On May 31, 1993, the victims’ bodies were discovered, all at separate locations. The crime went unsolved
for seven months. In January 1994, Raulerson was arrested on unrelated assault and weapons charges, and
he gave the police a blood sample. DNA analysis linked
Raulerson to Dixon’s murder, and upon questioning
by law enforcement, Raulerson confessed to the three
murders. Id. at 623-24.
In his confession, Raulerson admitted that he
parked his car near Hampton’s pickup truck, and that
he shot Hampton several times from the bed of the
truck. Raulerson also confessed that he shot Dixon
as she attempted to flee from the truck. Raulerson
dragged Hampton from the truck and shot him several
more times, and then put Dixon, and two of Hampton’s
fishing rods, in his vehicle. Raulerson drove to a wooded
area several miles away, where he shot Dixon again
and sodomized her. Id. at 624-25.
Raulerson attempted to return to Dixon’s body the
next day, but did not approach the site because people
were nearby. Instead, he drove to a rural area of the
County and looked for a house to burglarize. Raulerson
stopped at a house with no cars in the carport. When
no one responded to his knock at the door, he broke into
a utility shed and stole meat from a freezer. Id. at 624.

App. 3
Raulerson heard someone in the house as he was
loading the meat into his car. Upon entering the home,
he encountered Gail Taylor, who was armed with a
kitchen knife. After struggling with Taylor and stabbing her in the wrist, perhaps fatally, Raulerson shot
Taylor multiple times before stealing her purse and
fleeing. Raulerson told investigators that he had stolen
the .22 rifle from a Pierce County residence that he had
burglarized in early May 1993. Id.
Officers executed a search warrant on Raulerson’s
residence and found a fishing rod that was identified
as having been taken from Hampton’s pickup truck the
night he was killed. Parts of a .22 caliber rifle were also
found at Raulerson’s home. A ballistics expert later testified that the shell casings found near Hampton and
Taylor were probably fired from the rifle found in
Raulerson’s possession. Id.
B. Procedural Background
1. State Prosecution and Direct Appeal
On February 2, 1994, Raulerson was indicted on
two counts of malice murder, burglary, felony murder,
kidnapping, aggravated sodomy, necrophilia, two counts
of possession of a firearm during the commission of a
felony, and possession of a firearm by a convicted felon.
The state sought the death penalty against Raulerson,
and the venue of the trial was changed to Chatham
County, Georgia. The trial was held February 20 to
March 7, 1996. Id. at 623 n.1.

App. 4
At trial, Raulerson offered expert testimony indicating that tests administered after the crime showed
that Raulerson was mentally retarded, with an IQ of
69.1 The state submitted other IQ test evidence that
was taken nine years earlier, when Raulerson was fifteen, indicating that his IQ was 83. The state’s psychologist opined that there was no indication that
Raulerson was severely mentally ill. Id. at 624.
The state abandoned prosecution of the felon in
possession of a gun charge, and the jury found Raulerson not guilty of aggravated sodomy. The jury convicted
Raulerson of the remaining counts, and imposed three
death sentences for the murders. Id. at 623 n.1.
The jury found several aggravating factors justifying the sentence. It found that the murder of Dixon was
committed while Raulerson was engaged in the commission of murdering Hampton, and that the murder
of Hampton occurred while Raulerson was kidnapping
Dixon. The jury found that the murders of Hampton,
Dixon, and Taylor were all outrageously or wantonly
vile, horrible, or inhuman in that the acts involved torture, depravity of mind, or aggravated battery. The
jury also found that the murder of Taylor was committed while Raulerson was in the commission of a burglary, and that Raulerson committed murder to obtain
money or other things of value. Raulerson was sentenced to death on March 15, 1996. Id. at 633.
1

It is estimated that between 1 and 3 percent of the population has an IQ of 70-75 or lower. Atkins v. Virginia, 536 U.S. 304,
309 n.5 (2002).

App. 5
In 1997, the Georgia Supreme Court affirmed
Raulerson’s conviction. It held that the evidence was
sufficient to authorize a rational trier of fact to find
Raulerson guilty beyond a reasonable doubt of two
malice murders, felony murder, burglary, necrophilia,
and possession of a firearm during the commission of a
felony. Id. at 624. The Court further noted that the jury
was authorized to find that [Raulerson’s] expert’s testimony [of his mental retardation] at trial was effectively rebutted by the State.” Id. at 627. The Court
also rejected Raulerson’s constitutional challenge to
Georgia’s law that requires the defense of mental retardation be proven beyond a reasonable doubt in order for a jury to return a “guilty but mentally retarded
verdict.” Id. at 632 (citing Burgess v. State, 264 Ga. 777,
789-92 (1994)).
2. State Habeas Corpus Application
Raulerson is incarcerated on death row at the
Georgia Diagnostic Prison in Jackson, Georgia. In
1998, Raulerson filed a petition for a writ of habeas
corpus in the Superior Court of Butts County, Georgia,
and amended his petition in 2000. Resp’t Ex. 94 at 2.
An evidentiary hearing was held on February 20 and
21, 2001. Id. On March 22, 2004, the court denied the
petition. Id. at 64. On January 11, 2005, the Supreme
Court of Georgia denied Raulerson’s application to appeal from that determination. See doc. no. 1 at 4.

App. 6
3. Federal Habeas Corpus Application
On July 18, 2005, Raulerson filed his petition for a
writ of habeas corpus in federal court. On June 9, 2008,
the Honorable Anthony Alaimo entered an Order allowing discovery on the issue of whether Georgia’s burden of proof on the mental retardation standard was
unconstitutional. (Doc. no. 33.) Specifically, in this Order, Judge Alaimo found that the state habeas court
“determined that the state supreme court’s decision on
direct appeal on the constitutionality of the burden of
proof was res judicata, and that it had no jurisdiction
to reconsider that ruling.” Id. at 8. Thus, Judge Alaimo
granted Raulerson’s request for authorization of funds
to retain Professor Ruth Luckasson, but denied funds
for a clinical psychologist. Furthermore, Respondent
was directed to answer Raulerson’s interrogatories.
Thereafter, Raulerson filed a motion for an evidentiary hearing on Claim III regarding the constitutionality of Georgia’s burden of proof for mental retardation.
(Doc. no. 41.) On December 15, 2008, Judge Alaimo
granted this request, finding that Raulerson was diligent in presenting his claims to the state courts and
that his allegations, if true, would entitle him to relief.
(Doc. no. 44.) Judge Alaimo again based this ruling on
his finding that ‘the state habeas court did not reach
the merits of Raulerson’s claim, or interpret the import
of the intervening precedent in Atkins, but simply explained that it was bound by the state supreme court’s
interpretation.” (Id. at 44.)

App. 7
On February 23, 2009, an evidentiary hearing was
conducted on Georgia’s burden of proof regarding mental retardation. Raulerson called Ruth Luckasson as
an expert witness over the objection of Respondent.
(Doc. no. 49.) After this hearing, the parties briefed
Claim III, including the evidence presented at the February 23, 2009 hearing.
On July 24, 2009, Judge Alaimo entered an Order
determining that Raulerson’s Brady claim and Batson
claim were barred from federal review due to procedural default, while reserving ruling on Raulerson’s
remaining claims regarding ineffective assistance of
counsel. (Doc. no. 63.) Thereafter, the parties filed
briefs on the remaining claims on the merits.
On March 31, 2010, the case was transferred to the
undersigned judge for plenary disposition. Oral Argument was set for July 30, 2010, but this hearing was
postponed in light of the Eleventh Circuit’s continued
consideration of Hill v. Schofield, ___ F.3d ___, No. 0815444 2010 WL#2427092 (11th Cir. June 18, 2010), a
case regarding the constitutionality of Georgia’s burden of proof for mental retardation. On November 22,
2011, on rehearing en banc, the Eleventh Circuit held
that the Georgia Supreme Court decision upholding
Georgia’s statutory reasonable doubt standard for capital defendants’ mental retardation claims was not
contrary to clearly established law. Hill v. Humphrey,
662 F.3d 1335 (11th Cir. 2011). On June 4, 2012, the
United States Supreme Court denied certiorari, Hill v.
Humphrey, 132 S. Ct. 2727 (2012), and on August 31,
2012, the United States Supreme Court denied the

App. 8
petition for rehearing, Hill v. Humphrey, 133 S. Ct. 94
(2012).
On March 26, 2013, the Court set supplementary
briefing deadlines for the parties to identify the remaining ripe issues as well as the impact of the Eleventh Circuit’s opinion in Hill. (Doc. no. 83.) Further, the
Court ordered oral argument for July 15, 2013. The
week prior to oral argument, the Court canceled the
hearing and set final briefing deadlines with respect to
Raulerson’s claim that he is mentally retarded. (Doc.
no. 89.)
II.

Section 2254 Standard

The Antiterrorism and Effective Death Penalty
Act of 1996 (AEDPA), signed into law on April 24, 1996,
amended § 2254(d) to provide:
An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the
judgment of a State court shall not be granted
with respect to any claim that was adjudicated on the merits in State court proceedings
unless the adjudication of the claim
(1) resulted in a decision that was contrary
to, or involved an unreasonable application of,
clearly established Federal law, as determined
by the Supreme Court of the United States; or
(2) resulted in a decision that was based on
an unreasonable determination of the facts in
light of the evidence presented in the State
court proceeding.

App. 9
28 U.S.C. § 2254(d). The United States Supreme Court
addressed Section 2254(d) in Brown v. Payton, 544 U.S.
133 (2005). The Supreme Court explained the difference between the “contrary to” and “unreasonable application” clauses in § 2254(d)(1) as follows:
AEDPA provides that, when a habeas petitioner’s claim has been adjudicated on the
merits in state-court proceedings, a federal
court may not grant relief unless the state
court’s adjudication of the claim “resulted in a
decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined by the Supreme Court of the United States.” A statecourt decision is contrary to this Court’s
clearly established precedents if it applies a
rule that contradicts the governing law set
forth in our cases, or if it confronts a set of
facts that is materially indistinguishable from
a decision of this Court but reaches a different
result. A state-court decision involves an unreasonable application of this Court’s clearly
established precedents if the state court applies this Court’s precedents to the facts in an
objectively unreasonable manner.
Brown, 544 U.S. at 141 (internal citations omitted).
Thus, under § 2254(d)(1), it is not enough to demonstrate that a state court’s decision is “incorrect or
erroneous”; only a showing that the decision was
“objectively unreasonable” will entitle a petitioner to
relief. Wiggins v. Smith, 539 U.S. 510, 520-21 (2003).
In sum, a habeas petition may be granted if “the
state court’s decision was contrary to, or involved an

App. 10
objectively unreasonable application of, the governing
Federal law set forth by Supreme Court cases.” McIntyre v. Williams, 216 F.3d 1254, 1257 (11th Cir. 2000).
Elaborating on this standard, the Supreme Court recently stated that a habeas court may only “issue the
writ in cases where there is no possibility fairminded
jurists could disagree that the state court’s decision
conflicts with this Court’s precedents.” Harrington v.
Richter, 131 S. Ct. 770, 786 (2011) (“[E]ven a strong
case for relief does not mean the state court’s contrary
conclusion was unreasonable.”).
Moreover, AEDPA sets a highly deferential standard of review for state court factual determinations.
AEDPA “requires federal habeas courts to presume the
correctness of state courts’ factual findings unless applicants rebut this presumption with ‘clear and convincing evidence.’ ” Schriro v. Landrigan, 550 U.S. 465,
473-74 (2007) (quoting 28 U.S.C. § 2254(e)(1)); see also
Crawford v. Head, 311 F.3d 1288, 1317 (11th Cir. 2002)
(affirming state court factual determination “because
there is support for it in the record and [the petitioner]
has not rebutted the finding by clear and convincing
evidence”). Thus, “some evidence suggesting the possibility” that a petitioner’s version of the pertinent
facts is correct is not sufficient to carry the burden of
showing that a state court made an unreasonable determination of fact as contemplated by § 2254(d)(2).
Bottoson v. Moore, 234 F.3d 526, 540 (11th Cir. 2000).
If the record provides any support for a state court’s
factual findings, this Court may not set aside those

App. 11
findings unless and until they are rebutted by clear
and convincing evidence. Crawford, 311 F.3d at 1317.
III.

DISCUSSION

Raulerson raises a number of claims in his petition that merit-discussion. The Court will first address
his claim that trial counsel were ineffective in violation
of Strickland (Claim I). Next, the Court will analyze
his contention that Georgia’s statutory burden of proof
is unconstitutional (Claim III). Then, the Court will
discuss his claim that he is mentally retarded and
therefore ineligible for the death penalty under Atkins
(Claim II). Finally, the Court will address his claims
that the sentencing phase instructions were unconstitutional (Claim IV); that he is ineligible for the death
penalty because he is severely mentally ill (Claim VI);
that he was denied access to competent mental health
assistance (Claim VII); that his death sentence is an
arbitrary application of the death penalty (Claim XII);
and that the cumulative effect of these errors entitles
him to habeas relief (Claim XIV).
A. Claim I: Ineffective Assistance of Counsel
for Failure To Adequately Investigate and
Present Mitigating Evidence
Raulerson contends that his trial counsel rendered ineffective assistance of counsel by failing to adequately investigate and present a case for the jury to
return a verdict of life as opposed to death. Raulerson takes issue with the paucity of testimony in the

App. 12
mitigation phase. Raulerson complains that trial counsel failed to investigate and present evidence regarding the abuse Raulerson suffered during childhood,
Mr. Raulerson’s love for his wife and child, and Raulerson’s mental state and condition at the time of the
murders. Additionally, Raulerson contends that trial
counsel failed to investigate and challenge the State’s
aggravating evidence. See doc. no. 1 at 9.
1. Ineffective Assistance of Counsel Standard
“The benchmark for judging any claim of ineffectiveness must be whether counsel’s conduct so undermined the proper functioning of the adversarial
process that the trial cannot be relied on as having
produced a just result.” Strickland v. Washington, 466
U.S. 668, 686 (1984). Strickland established the familiar two-pronged analysis under which a criminal defendant’s Sixth Amendment rights are denied when
(1) a defense attorney’s performance falls below an
objective standard of reasonableness and (2) thereby
prejudices the defense. Yarborough v. Gentry, 540 U.S.
1, 5 (2003); see also Wiggins v. Smith, 539 U.S. 510, 520
(2003). “Failure to make the required showing of either
deficient performance or sufficient prejudice defeats
the ineffectiveness claim.” Strickland, 466 U.S. at 700.
To establish deficient performance, a petitioner
must show that “counsel made errors so serious that
counsel was not functioning as the ‘counsel’ guaranteed . . . by the Sixth Amendment.” Id. at 687. The

App. 13
Supreme Court has “declined to articulate specific
guidelines for appropriate attorney conduct.” Wiggins,
539 U.S. at 521. Instead, “[t]here are countless ways to
provide effective assistance in any given case.” Strickland, 466 U.S. at 689. “The proper measure of attorney
performance remains simply reasonableness under
prevailing professional norms.” Id. at 688. In reviewing
ineffectiveness claims, “judicial scrutiny of counsel’s
performance must be highly deferential.” Id. at 689.
Furthermore, courts afford counsel a “strong presumption of competence,” Cullen v. Pinholster, 131 S. Ct.
1388, 1407 (2011); see also Premo v. Moore, 131 S. Ct.
733, 742 (2011) (“[S]ubstantial deference must be accorded to counsel’s judgment.”); Rompilla v. Beard, 545
U.S. 374, 381 (2005) (recognizing the “heavy measure
of deference to counsel’s judgments”).
Even when the record fails to explain all of trial
counsel’s decision-making, “the defendant must overcome the presumption that, under the circumstances,
the challenged action might be considered sound trial
strategy.” Bell v. Cone, 535 U.S. 685, 698 (2002) (quotation omitted); see also Yarborough, 540 U.S. at 8
(“When counsel focuses on some issues to the exclusion
of others, there is a strong presumption that he did
so for tactical reasons rather than through sheer neglect.”). When courts are examining the performance of
an experienced trial counsel, the presumption that his
conduct was reasonable is even stronger. See Provenzano v. Singletary, 148 F.3d 1327, 1332 (11th Cir. 1998)
(stating that the “strong reluctance to second guess strategic decisions is even greater where those decisions

App. 14
were made by experienced criminal defense counsel”
and that “[t]he more experienced an attorney is, the
more likely it is that his decision to rely on his own
experience and judgment in rejecting a defense” is reasonable); see also Burger v. Kemp, 483 U.S. 776, 779780 (1987) (reciting counsel’s impressive credentials in
opinion finding that counsel rendered effective assistance).
To establish actual prejudice, a petitioner must
show “a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would
have been different.” Strickland, 466 U.S. at 694; see
also Wiggins, 539 U.S. at 534. A “reasonable probability” is one that is sufficient to undermine confidence in
the outcome. See Strickland, 466 U.S. at 689; Wiggins,
539 U.S. at 534. The court does not consider prejudice
in a vacuum. “In making this determination, a court
hearing an ineffectiveness claim must consider the totality of the evidence before the judge or jury.” Strickland, 466 U.S. at 695.
2. State Habeas Court’s Determination
Regarding Ineffective Assistance of
Counsel
In addressing Raulerson’s complaints of ineffectiveness of counsel, the state habeas court concluded
that counsel was not ineffective in its investigation
and presentation of potential mitigating evidence
at trial. See generally Resp’t Ex. 94. Specifically, the
state habeas court determined that counsel presented

App. 15
mitigating evidence in the guilt-innocence phase of the
trial demonstrating the following: that Raulerson was
physically and verbally abused by his parents; that
Raulerson grew up in an extremely dysfunctional
environment; that Raulerson’s family had a history of
substance abuse; that Raulerson began abusing drugs
and alcohol at a very young age; that Raulerson
showed signs of brain damage; that Raulerson had a
lifelong history of depression; that Raulerson was diagnosed with attention deficit disorder and explosive
disorder; that Raulerson had difficulty in controlling
his impulses; that Raulerson’s alleged mental retardation resulted in increased aggressive behavior due to
his increased level of frustration; that Raulerson attempted suicide and was hospitalized; that Raulerson
experienced marital difficulties resulting in divorce;
that Raulerson often experienced blackouts after using
alcohol and drugs; and that Raulerson engaged in
binge drinking and drug use in the days preceding the
crimes in question. Id. at 50-51.
Additionally, the state habeas court found that
counsel’s failure to present testimony of Raulerson’s
family members and acquaintances during sentencing
was not deficient. Id. at 51. The state habeas court determined that the testimony of these people could have
adduced additional harmful information that was not
otherwise before the jury. Id. at 52. Specifically, counsel
did not elicit testimony regarding Raulerson’s daughter because the prosecution could have responded to
such evidence with testimony from Raulerson’s exwife, Stacey Cox. Id. At the time of the crimes, Ms. Cox

App. 16
made statements to law enforcement that she suffered
beatings from Raulerson and that Raulerson threatened her life, as well as the lives of her family members. Id. The state habeas court also determined that
counsel’s failure to interview all of Raulerson’s family
members and acquaintances and to call these people
as potential mitigation witnesses was not deficient.
Specifically, the state habeas court determined that the
testimony presented during the state habeas proceeding by these potential witnesses was cumulative of the
evidence presented at the guilt-innocence phase of the
trial. Id. at 53. The only evidence that was not cumulative were a few instances of Raulerson’s isolated good
deeds, and the state habeas court found there was no
reasonable probability that presenting this evidence
would have resulted in a sentence less than death. Id.
at 53-54. The state habeas court also concluded that
the trial court instructed the jury regarding sentencing that they were “authorized to consider all of the
evidence received” in court “in both stages of this proceeding, presented by the State and the defendant
throughout the trial.” Id. at 51. Thus, the state habeas
court concluded that trial counsel did not perform deficiently in mitigation under Strickland. Id.
3. Application of Strickland
Here, as in Strickland, Raulerson contends that
his trial counsel – Mr. Leon Wilson and Mr. Mark Hatfield – were deficient for failing to perform a proper
investigation into potential mitigating evidence. Raulerson argues that the state habeas court’s conclusion

App. 17
to the contrary is an unreasonable application of Strickland as announced in the following cases: Williams v.
Taylor, 529 U.S. 362, 395-96 (2000) (finding that defense counsel’s failure to investigate and present any
mitigating evidence at sentencing in a capital murder
case was deficient performance, where counsel failed to
present record evidence of the defendant’s substantial
alcohol and drug consumption and lack of sleep before
the murder, favorable expert testimony regarding the
defendant’s cognitive ability to conform his conduct to
the law, evidence of the defendant’s history of drug and
alcohol abuse, and evidence of his dysfunctional upbringing); and Wiggins, 539 U.S. at 519-38 (finding that
counsel’s failure to investigate the petitioner’s life history for mitigating evidence for the penalty phase of
his murder trial, beyond reviewing a presentence investigation report and department of social services
records, fell short of prevailing professional standards).
a) Investigation of Mitigation Evidence
The issue before this Court now is whether the
state habeas court unreasonably applied the Strickland standard in consideration of Petitioner’s claim
that his counsel was ineffective during the mitigation
phase. That is to say, because of the added layer of deference that AEDPA requires of this Court, Petitioner
“must do more than satisfy the Strickland standard.
He must also show that in rejecting his ineffective
assistance of counsel claim the state court ‘applied
Strickland to the facts of his case in an objectively
unreasonable manner.’ ” Rutherford v. Crosby, 385 F.3d

App. 18
1300, 1309 (11th Cir. 2004) (quoting Bell v. Cone, 535
U.S. 685, 699 (2002)).
The Eleventh Circuit has explained that in addressing a habeas claim that trial counsel should have
done something more, a court should first look at what
the attorney actually did. See Grayson v. Thompson,
257 F.3d 1194, 1218-19 (11th Cir. 2001). This is not a
case where trial counsel did little or nothing in preparation for Petitioner’s mitigation case before the jury.
Indeed, a review of the record shows that trial counsel
conducted an adequate investigation into Petitioner’s
past. Trial counsel knew from the start that the case
would revolve around Petitioner’s mental retardation.
To assist in this endeavor, Mr. Wilson acquired the
services of a licensed social worker, Audrey Sumner; a
psychologist, Dr. Daniel Grant; a psychiatrist board
certified in neuropsychology and forensic psychology,
Dr. John Savino; a neurologist, Dr. Michael Baker; and
a neuropsychologist, Dr. Manuel Chaknis.1 Resp. Ex.
94 at 12-13; Ex. 25 at 11, 12, 17; Ex. 81 at 7756. Trial
counsel also interviewed Raulerson’s mother, father,
1

Raulerson claims that the state habeas court’s determination that Dr. Grant did not request additional materials from
Mr. Wilson is an unreasonable determination of the facts. Indeed,
there does appear to be sworn testimony by Dr. Grant that he requested additional materials from Mr. Wilson. See Resp’t Ex. 59
at 536. However, even if the state habeas court’s determination
was unreasonable, Raulerson has failed to explain how he was
prejudiced by Dr. Grant’s failure to obtain additional evidence.
Dr. Grant testified for a day at the trial that Raulerson was mentally retarded. Raulerson failed to argue or present evidence that
this additional information would have changed the outcome of
the trial.

App. 19
brother, and uncle regarding his childhood and family
life. Resp’t Ex. 94 at 14; Resp’t Ex. 81 at 7915-7937.
Although Raulerson now claims that trial counsel
should have interviewed his school teachers, their affidavits for the state habeas proceeding are largely
contradicted by Petitioner’s school records. Indeed, Dr.
Grant’s report indicates that Raulerson’s school experience was marked with extreme difficulties. In his
school records, Raulerson’s teachers described him as
having difficulty in controlling his mood and behaviors,
lacking self-control, exhibiting cruelty to others, lacking any friends, and failing to ever adapt to the school
environment. Resp’t Ex. 81 at 7624-25.
Petitioner argues that the state habeas court’s
determination is contrary to, or an unreasonable application of, several Supreme Court cases involving the
effectiveness of counsel during the mitigation phase of
a death penalty trial including Williams, Wiggins, and
Rompilla. Importantly, however, the instant case does
not present the type of circumstances encountered by
the habeas courts in the cited Supreme Court cases.
For instance, in Williams the Supreme Court found
that the defendant’s counsel had not begun to prepare
for sentencing until a week before the trial, failed to
present any evidence of the defendant’s borderline
mental retardation, and failed to uncover juvenile and
social services records depicting the defendant’s nightmarish childhood. See 529 U.S. at 391-98. Similarly,
in Wiggins, the Supreme Court faulted Wiggins’s trial
counsel for their failure to obtain any information
about his background despite a report that Wiggins

App. 20
had a miserable childhood spent in foster care. Further
investigation would have revealed that Wiggins had an
abusive and alcoholic mother and suffered physical
and sexual abuse in more than one foster home. See
539 U.S. at 534-38. And finally, in Rompilla, the
Supreme Court granted habeas relief based upon
Rompilla’s attorney’s failure to uncover evidence of a
miserable and abusive childhood, psychological tests
that pointed to schizophrenia and other disorders, and
Rompilla’s organic brain damage and impaired cognitive function. See 545 U.S. at 390-91.
In this case, despite a claim that counsel “failed to
investigate,” Raulerson has not argued that his trial
counsel failed to uncover some relevant critical evidence about his background. For instance, trial counsel
were aware that Raulerson suffered physical and mental abuse as a child and was a life-long abuser of drugs
and alcohol. Further, counsel actively investigated
and pursued mental retardation. These issues were
explored at trial during the guilt-innocence phase. Indeed, all the relevant information about Raulerson
came out during the trial of the case in one form or
another. Consequently, the state habeas court’s determination that trial counsel was not ineffective for a
failure to investigate is not unreasonable.
b) Presentation of Mitigation Evidence
Raulerson also contends that trial counsel were ineffective for failure to present mitigating evidence in
this case. First, Raulerson argues that the failure to

App. 21
present any mitigation witnesses rendered his counsel
ineffective. See Doc. no. 1 at 12-16. Next, Raulerson argues that his trial counsel failed to present evidence of
his childhood abuse and deprivation; his love for his
wife and child; his mental state at the time of the
crimes; and further evidence of mental retardation. Id.
Finally, Raulerson argues that trial counsel failed to
investigate and challenge the State’s aggravation witnesses, Wayne Reeves and Chris Raulerson. Id. at 29.
i.

No Mitigation Witnesses at Sentencing Phase

First, the state habeas court’s determination that
trial counsel were not ineffective for failure to present
mitigation witnesses during the sentencing phase of
the trial is not an unreasonable application of the law
or determination of the facts. No absolute duty exists
to introduce mitigating or character evidence. See
Tarver v. Hopper, 169 F.3d 710, 715 (11th Cir. 1999)
(noting that counsel is not “required to investigate
and present all available mitigating evidence to be reasonable”) (citing Burger, 483 U.S. at 794-95; Stanley v.
Zant, 697 F.2d 955, 961 (11th Cir. 1983) (no duty to present general character evidence)); see also Waters v.
Thomas, 46 F.3d 1506, 1511 (11th Cir. 1995) (en Banc)
(noting that both the Eleventh Circuit and the Supreme Court have held counsel’s performance to be
constitutionally sufficient when no mitigation evidence
was produced even though it was available). See, e.g.,
Burger, 483 U.S. at 794-95 (finding counsel effective

App. 22
even though counsel presented no mitigation evidence
at all); Darden v. Wainwright, 477 U.S. 168, 186 (same).
Furthermore, a lawyer reasonably could have determined that character evidence would not be compelling in this case. See Chandler v. U.S., 218 F.3d 1305,
1319 (11th Cir. 2000). And a lawyer reasonably could
also fear that character evidence might, in fact, be
counterproductive: it might provoke harmful cross-examination and rebuttal witnesses. Misgivings about
damaging cross-examination and rebuttal witnesses
have been decisive to the Supreme Court when it determined that counsel was effective. See, e.g., Burger,
483 U.S. at 792 (concluding that failure to introduce
character evidence was effective performance because
witnesses could have been subjected to harmful crossexamination or invited other damaging evidence);
Darden, 477 U.S. at 186 (1986) (same); Strickland, 466
U.S. at 673 & 699 (same). Trial counsel in this case has
testified that he had these same misgivings and concerns.
For instance, Mr. Hatfield testified that trial counsel did not call any family members during the mitigation phase for fear that they would offer negative
information that would be damaging to Raulerson’s
case. See Resp’t Ex. 57 at 204. Trial counsel were concerned that calling Raulerson’s mother and sister
might lead to introduction of, or elaboration on, incidents of violence where Raulerson was the aggressor
against his mother and sister. Id. at 206, 208, 261, 290.
Additionally, calling Raulerson’s ex-wife, Stacey Cox,
to testify regarding Raulerson’s relationship with his

App. 23
daughter would have likely led to testimony that
Raulerson regularly beat Ms. Cox. See Resp’t Ex. 94 at
52. Likewise, Mr. Hatfield testified that they chose not
to call Raulerson’s uncle, Donald Pittman, because he
exhibited very bizarre behavior and was not “the sort
of guy you would want to put on the stand in front of a
jury.” Resp’t Ex. 57 at 174.
Moreover, a plausible explanation exists for the
failure to present mitigation witnesses. Under Georgia
law, the sentencing jury may consider evidence placed
before it during both phases of the trial. See O.C.G.A
§ 17-10-30(b) (formerly codified at § 27-2534.1(b) of
the 1933 Code). Thus, while Raulerson’s trial counsel
elected not to offer additional evidence during the sentencing phase, Raulerson is “incorrect to say that counsel offered no mitigating evidence” at all. See Stanley,
697 F.2d at 969.
The record belies the assertion that trial counsel
made no effort to place before the jury information that
might have tended to mitigate the jury’s view of what
his punishment should be. Dr. Grant testified that after extensive testing Raulerson was in fact mentally
retarded. This testimony spanned nearly 200 pages of
the trial transcript. See Resp’t Ex. 25 at 10-189. Additionally, during closing arguments in the sentencing
phase of the trial, Mr. Wilson argued for Raulerson’s
life, citing to the mitigation evidence introduced in the
guilt-innocence phase. He implored the jury to consider
“the way [Raulerson] was raised, this dysfunctional
family, parents that fought like animals with each
other; an alcoholic father who taught him to mind with

App. 24
blows of his fists to his head, who taught him how to
drink alcohol when he was 10 years old, who taught
him to steal for food for them to live on.” Resp’t Ex. 28
at 117-18. Consequently, although trial counsel failed
to present any mitigation witnesses during sentencing,
this Court cannot say that the state habeas court’s determination was an unreasonable application of the
law or determination of the facts.
ii. Failure to Present Evidence
of Intoxication During Crimes
Likewise, the state habeas court’s determination
that trial counsel were not deficient for failure to present further evidence regarding his state of intoxication
and substance abuse is not an unreasonable determination. It is well-accepted that many lawyers fear introducing evidence of alcohol and drug use. See Clisby
v. Alabama, 26 F.3d 1054, 1056 (11th Cir. 1994). It is
not unreasonable for trial counsel to decide not to
dwell on intoxication due to the general disdain which
jurors hold drunkenness as an excuse for violent behavior. White v. Singletary, 972 F.2d 1218, 1226 (11th
Cir. 1992). Indeed, emphasizing intoxication at the
time of the murders, or a history of drinking in general,
could have damaged Raulerson’s case for life before
the jury. See Grayson v. Thompson, 257 F.3d 1194, 1227
(11th Cir. 2001) (“[W]e note that emphasizing [the petitioner’s] alcoholic youth and intoxication may also
have been damaging to [the petitioner] in the eyes
of the jury.”); Tompkins v. Moore, 193 F.3d 1327, 1338
(11th Cir. 1999) (“[A] showing of alcohol and drug

App. 25
abuse is a two-edged sword which can harm a capital
defendant as easily as it can help him at sentencing.”)
(citing Waldrop v. Jones, 77 F.3d 1308, 1313 (11th Cir.
1996)); Rogers v. Zant, 13 F.3d 384, 388 (11th Cir. 1994)
(noting reasonableness of lawyer’s fear that defendant’s
voluntary drug and alcohol use could be “perceived by
the jury as aggravating instead of mitigating”) (emphasis in original).
As to evidence of drug and alcohol abuse during
the time of the incidents, Mr. Hatfield testified that
he did not believe introducing additional evidence of
Raulerson’s intoxication would have benefited Raulerson. Specifically, he testified that “we are in the Bible
belt, and people sitting on juries just don’t really think
very much of, you know, saying I was drunk or drugged
out of my mind and didn’t know what I was doing.”
Resp’t Ex. 57 at 264. Mr. Hatfield testified further that
people “are very unforgiving, you know, when it comes
to that sort of drug and alcohol use.” Id. at 265. Additionally, trial counsel did not want to divert attention
away from what they considered the best defense: mental retardation. Id. at 266. Raulerson has not presented
any Supreme Court precedent that renders the habeas
court’s decision unreasonable. Accordingly, the state
habeas court’s determination that trial counsel were
not deficient for failing to introduce more evidence of
intoxication and drug abuse is not an unreasonable determination.

App. 26
iii. Failure to Present Evidence
of Mental Illness
Raulerson also argues that the state habeas court
should have determined that trial counsel should have
presented evidence of mental illness. However, the
Eleventh Circuit has stated that “[t]o avoid being
branded ineffective, defense lawyers need not assert
every nonfrivolous defense.” Rogers, 13 F.3d at 388 (11th
Cir. 1994). A “multiplicity of arguments or defenses
hints at the lack of confidence in any one.” Id. (citing
Jones v. Barnes, 463 U.S. 745, 751-53 (1983).)
Here, Mr. Hatfield testified that trial counsel chose
not to present mental illness to the jury because it
would compete with the mental retardation defense.
Resp’t Ex. 57 at 195, 242. Significantly, at the time of
Raulerson’s trial, a defense of mental illness – unlike
mental retardation – would not have saved him from
the death penalty.2 Thus, trial counsel decided that
pursuing only mental retardation was the most likely
strategy to save Raulerson. Id. Trial counsel’s determination that presenting a mental illness defense would
have detracted from the mental retardation defense
was not an unreasonable trial strategy. Accordingly,
the state habeas court’s determination as such is not

2

According to the 1988 version of O.C.G.A. § 7-7-131, defendants found guilty but mentally ill are entitled to psychological
evaluation and treatment, but the explicit terms of the statute
provide that the death penalty is only prohibited for those who
are found guilty but mentally retarded.

App. 27
an unreasonable application of federal law or an unreasonable determination of the facts.
iv. Failure to Cross-Examine Aggravation Witnesses
Raulerson further contends that his trial counsel
were deficient for failure to thoroughly cross examine
aggravation witnesses that painted Raulerson as a continuous threat to society. Specifically, Raulerson argues
that his trial counsel should have cross-examined
Wayne Reeves. At trial, Mr. Reeves testified about an
alleged incident in which Raulerson shot at individuals in a boat. Raulerson argues that defense counsel
should have presented evidence that Mr. Reeves had a
long criminal history and made inconsistent statements to police regarding whether Raulerson actually
shot at individuals in a boat.
At the state habeas hearing, Mr. Hatfield testified
that he did not cross-examine Mr. Reeves because Mr.
Reeves could also testify that Raulerson had made
some racial remarks that trial counsel did not want to
come out to the jury. See Resp’t Ex. 57 at 232. Mr. Hatfield also testified that the reason for not bringing out
Mr. Reeves’ prior convictions was a desire to avoid
“point[ing] the finger at Wayne Reeves for having had
the same prior record that our client did.” Id. at 273.
Likewise, Raulerson argues that trial counsel
should have cross-examined his brother, Chris Raulerson, who testified about an incident in which Raulerson allegedly pushed his mother, punched his sister,

App. 28
and used a gun to threaten his brother. Specifically,
Raulerson contends that testimony from his sister and
another witness would have established that it was a
fight between brothers that escalated. See Doc. no. 66
at 41. However, there is no evidence that Petitioner did
not threaten his brother with a gun, push his mother
to the ground, and punch his sister during the altercation in question. Accordingly, the state habeas court’s
determination that trial counsel reasonably handled
these aggravation witnesses is not an unreasonable
application of clearly established federal law or an unreasonable determination of the facts.
v.

Failure to Present Full Extent
of Mitigation Evidence

Raulerson also takes issue with the depth at
which certain aspects of his background were explored
and detailed before the jury. In this Court’s estimation,
however, Raulerson’s ineffectiveness claim focuses
upon the strategic choices his counsel made after a
thorough investigation into any mitigating evidence.
Mr. Hatfield testified that introducing all the information
into the record during mitigation that Raulerson now
seeks to argue was pertinent would be like “throw[ing]
100 things against the wall and see[ing] what sticks”
and that it “is not [his] approach to the trial of a case.”
Resp’t Ex. 57 at 213. Indeed, “strategic choices made
after thorough investigation of law and facts relevant
to plausible options are virtually unchallengeable.”
Strickland, 466 U.S. at 690. Considering the realities of
the courtroom, more is not always better. The Eleventh

App. 29
Circuit explained that stacking defenses can hurt a
case. Good advocacy requires “winnowing out” some arguments, witnesses, evidence, and so on, to stress others. See Rogers, 13 F.3d at 388 (citing Jones v. Barnes,
463 U.S. 745, 751 (1983)); see also Waters, 46 F.3d at
1512 (en banc) (“There is much wisdom for trial lawyers in the adage about leaving well enough alone.”).
Ultimately, counsel is not required to present
every nonfrivolous defense; nor is counsel required to
present all mitigation evidence, even if the additional
mitigation evidence would have been compatible with
counsel’s strategy. See Waters, 46 F.3d at 1511 (en
banc) (“Our decisions are inconsistent with any notion that counsel must present all available mitigating
circumstance evidence.”). Consequently, the state habeas court’s denial of Raulerson’s ineffective assistance
claim on this ground is not an unreasonable application of clearly established federal law or an unreasonable determination of the facts.
c)

Prejudice

Under the second prong of Strickland, counsel’s alleged failures must have prejudiced the defense to constitute ineffective assistance. Strickland, 466 U.S. at
692. “When a defendant challenges a death sentence
. . . the question is whether there is a reasonable probability that, absent the errors, the sentencer . . . would
have concluded that the balance of aggravating and
mitigating circumstances did not warrant death.” Id.
at 695. In assessing a claim of prejudice, the Court

App. 30
must re-weigh the aggravating evidence against all of
the mitigating evidence adduced at trial and during
the state habeas proceedings. Wiggins, 539 U.S. at 534.
Here, Raulerson made a full confession to the police, his DNA was recovered from Mrs. Dixon’s rectum,
and property taken from the three murder victims was
recovered at Raulerson’s home at the time of his arrest.
As stated by Raulerson in his brief on the merits,
“[t]here was virtually no chance that Mr. Raulerson
would be found innocent of these crimes.” See Doc. no.
66 at 20. Raulerson does not deny that the evidence
clearly establishes that the murder of Dixon was committed while Raulerson was engaged in the commission of murdering Hampton; that the murder of
Hampton occurred while Raulerson was kidnapping
Dixon; that the murders of Hampton, Dixon, and Taylor were all outrageously or wantonly vile, horrible, or
inhuman in that the acts involved torture, depravity of
mind, or aggravated battery; that the murder of Taylor
was committed while Raulerson was in the commission
of a burglary; or that Raulerson committed murder to
obtain money or other things of value.
Rather, as evidence that he was prejudiced by trial
counsel’s alleged failures, Raulerson presents three
juror affidavits claiming that if they had been presented with additional mitigation evidence, they would
have given Raulerson life in prison without parole rather than a death sentence. See doc. no. 66 at 52. However, on collateral appeal the state habeas court
declined to consider these affidavits because O.C.G.A.
§ 17-9-41 provides that jurors’ affidavits “may be taken

App. 31
to sustain but not to impeach their verdict.” See Gardiner v. State, 264 Ga. 329, 332 (1994).3 Georgia’s rule
against the use of juror affidavits to impeach the verdict is similar to Federal Rule of Evidence 606, which
prohibits jurors from testifying about “the effect of
anything on that juror’s or another juror’s vote; or any
juror’s mental processes concerning the verdict or indictment. The court may not receive a juror’s affidavit
or evidence of a juror’s statement on these matters.”
Fed. R. Evid. 606(b).4 Accordingly, the juror affidavits
do not offer any competent evidence that more evidence in mitigation would have changed the outcome
of the proceedings. As a result, the state habeas court’s
finding that Raulerson was not prejudiced by the alleged errors of trial counsel is not unreasonable under
Section 2254(d).
4. Conclusion
In conclusion, although Raulerson asserts that his
trial counsel completely failed to investigate or present
mitigation evidence, the reality is that trial counsel’s
mitigation strategy was unsuccessful. The jury rejected Raulerson’s mitigating evidence in favor of the
3

The exception to the rule is when affidavits would show
that “extrajudicial and prejudicial information has been brought
to the jury’s attention improperly, or where non-jurors have interfered with the jury’s deliberations.” Id. (internal citations omitted).
4
The exceptions – extraneous prejudicial information or outside influences – are not at issue with respect to Raulerson’s claim
that more mitigation evidence would have changed the jurors’
vote.

App. 32
death penalty. In now reweighing the evidence, this
Court finds that none of the additional mitigation
evidence proffered here would have altered the jury’s
finding that the murders were especially heinous
or atrocious. The notion that the result would have
been different had counsel presented more detailed
evidence of Raulerson’s mental retardation, mental
health issues, history of abuse, and “love” for his family
is unattainable in light of the aggravating evidence before the jury. The jury heard about Raulerson’s mental
retardation and dysfunctional childhood in the days
prior to its verdict of death. The additional evidence
proffered by habeas counsel would not have changed
the prosecution’s portrayal of Raulerson as a dangerous, cold-blooded killer. Indeed, it was not objectively
unreasonable for trial counsel to believe that providing more detailed information about Raulerson’s substance abuse issues, family, or his mental state at the
time of the crime may have been counterproductive
and harmful to his mitigation case.
Raulerson has simply not shown a reasonable
probability that additional, more detailed evidence of
his mental health problems, substance abuse issues,
familial relationships, and history of childhood abuse
would have changed the balance of aggravating and
mitigating circumstances. The Eleventh Circuit has
noted that “some death penalty cases almost certainly
cannot be won by defendants because sometimes the
best lawyering, not just reasonable lawyering, cannot
convince the sentencer to overlook the facts of a brutal
murder – or, even a less-brutal murder – for which

App. 33
there is strong evidence of guilt in fact.” Lawhorn, 519
F.3d at 1295 (citing Clisby, 26 F.3d at 1057 (quotations
omitted)). Accordingly, habeas relief based upon counsel’s performance at the mitigation phase must be DENIED.5 Consequently, in accordance with the July 24,
2009, Order of this Court, (doc. no. 63) Raulerson has
not demonstrated cause and prejudice to excuse his
procedural default as to the following claims: Claim
VIII (bomb threat claim); Claim IX (juror misconduct
claim); Claim X (same jury claim); and Claim XIII (unified appeal procedure claim).
B. Claim III: Whether Georgia’s Beyond a
Reasonable Doubt Standard for Mental
Retardation Is Unconstitutional
1. State Habeas Court Did Not Determine that Claim III Was Res Judicata
In addressing Petitioner’s Claim III, whether
Georgia’s statutory burden of proof regarding mental
5

Raulerson argues that if this Court were to deny relief on
the basis of the record, he is entitled to an evidentiary hearing to
develop additional evidence. In this case, an evidentiary hearing
on Claim I is not precluded under § 2254(e)(2) because Raulerson was diligent in seeking to develop the factual bases of his
claims in state court, see Williams v. Taylor, 529 U.S. 420, 432,
120 S.Ct. 1479, 1488, 146 L.Ed.2d 435 (2000). However, an evidentiary hearing in this case is not mandatory under Townsend
v. Sain, 372 U.S. 293 (1963). There is no indication from the state
records that Raulerson was deprived of developing evidence necessary to adjudicate his claims. Accordingly, the Court will exercise its discretionary authority to not hold a hearing, finding the
record to be fully developed with respect to the claims presented.
See Williams v. Allen, 542 F.3d 1326, 1347-48 (11th Cir. 2008).

App. 34
retardation is constitutional, the Court begins with its
previous Orders dated June 9 and December 15, 2008.
(Doc. nos. 33, 44.) In these Orders, Judge Alaimo determined that “the state habeas court did not reach the
merits of Raulerson’s claim, or interpret the import of
the intervening precedent in Atkins, but simply explained that it was bound by the state supreme court’s
interpretation” regarding Georgia’s burden of proof for
mental retardation. (See Doc. no. 44 at 6; see also doc.
no. 33 at 8.) However, a careful review of the state
court’s habeas order leads this Judge to a different conclusion.
The state habeas court found the following regarding Raulerson’s claim attacking Georgia’s statutory
burden of proof for mental retardation:
Claim IX, ¶56 of the amended petition,
wherein Petitioner alleged that he was denied
due process of law by requiring him to bear
the burden of proving his mental retardation
beyond a reasonable doubt. Raulerson, 268
Ga. at 632 (“There is no merit to Raulerson’s
challenge to the constitutionality of O.C.G.A.
§ 17-7-131(3), which requires that the defense
of mental retardation be proven beyond a reasonable doubt in order for a jury to return a
verdict of ‘guilty but mentally retarded.’ ”).
This Court denies Petitioner’s claim that the
United States Supreme Court’s decision in Atkins v. Virginia, 536 U.S. 304, 122 S. Ct. 2242
(2002), declared this burden of proof of mental
retardation unconstitutional. The Georgia Supreme Court’s recent decision in Head v. Hill,

App. 35
S03A0559 (2003) held that defendant’s burden in proving the mental retardation “beyond a reasonable doubt” is controlling.
(Doc. no 31, Ex. 424 at 6.)
Petitioner continues to argue that this passage
from the state habeas order was not a decision on the
merits, but was a determination of res judicata. In order for res judicata to apply to a claim, it must have
been raised and decided during the direct appeal. See
Elrod v. Ault, 231 Ga. 750, 750 (1974); Gunter v. Hickman, 256 Ga. 315 (1986). The Eleventh Circuit, however, has “repeatedly held a state court’s summary
rejection of a claim qualifies as an adjudication on the
merits under 2254(d) so as to warrant deference.” Ferguson v. Culliver, 527 F.3d 1144, 1146 (11th Cir. 2008);
Herring v. Sec’y, Dep’t of Corr., 397 F.3d 1338, 1347 (11th
Cir. 2005). In Wright v. Moore, 278 F.3d 1245, 1255-56
(11th Cir. 2002), the Eleventh Circuit stated that “a decision that does not rest on procedural grounds alone
is an adjudication on the merits regardless of the form
in which it is expressed.”
In this case, the state habeas court went beyond a
res judicata determination and actually denied Raulerson’s claim based upon Atkins and Head v. Hill, 277 Ga.
255 (2003). Atkins and Head v. Hill were both issued
after the Georgia Supreme Court determined Raulerson’s direct appeal in 1997. Thus, the state habeas
court’s determination on Georgia’s burden of proof for
mental retardation could not have been a res judicata
decision. Instead, the state habeas order denied the

App. 36
claim based upon the merits, as there is no way that
the Georgia Supreme Court’s determination of Raulerson’s claim on direct appeal was based upon Atkins and
Head v. Hill.
The Court recognizes that the state habeas court
discusses this claim within the res judicata section of
its order. However, to find that the state habeas court
determined Raulerson’s constitutional challenge to
Georgia’s statutory burden of proof on mental retardation was res judicata is to elevate form over substance.
The state habeas court denied the claim and based the
denial upon cases that the Georgia Supreme Court
could not have considered on direct appeal. Although
the state habeas court failed to analyze the claim in
depth, a summary adjudication is enough to warrant
deference. Ferguson, 527 F.3d at 1146. Thus, the state
habeas court’s determination was on the merits and is
due deference under Section 2254(d)(1).
2. The State Habeas Court’s Finding that
Georgia’s Beyond a Reasonable Doubt
Burden of Proof Is Not Unconstitutional
Under Atkins Was Not Contrary to, or
an Unreasonable Application of, WellEstablished Federal Law.
In the most recent briefing to the Court, Respondent argues that Hill v. Humphrey, 662 F.3d 1335, 1360
(11th Cir. 2011), found that Georgia’s burden of proof
on mental retardation was not contrary to, or an unreasonable application of, clearly established federal

App. 37
law as established under Atkins. Accordingly, Respondent contends that Raulerson’s Claim III regarding the
burden of proof on mental retardation must be denied
as Hill is directly on point and controlling.
In Hill, the Eleventh Circuit affirmed the denial of
the petitioner’s Section 2254 petition because there
was no decision of the United States Supreme Court
clearly establishing that Georgia’s burden of proof on
mental retardation was unconstitutional. Id. Specifically, Hill addressed whether Georgia’s burden of proof
violates the Eight Amendment right established in
Atkins. Id. Thus, while Hill conclusively establishes
that the state habeas court’s decision regarding Georgia’s burden of proof was not contrary to, or an unreasonable application of, the Eight Amendment right
enunciated in Atkins, Hill did not rule on the question
of whether Georgia’s burden of proof violates procedural due process under the Due Process Clause. Id. at
1358.
Raulerson argues that Georgia’s burden of proof
on mental retardation violates procedural due process.
Specifically, Raulerson contends that Georgia’s burden
of proof on mental retardation is so high that it effectively assures that some mentally retarded persons
will be executed. Essentially, Raulerson argues that
the state habeas court’s use of the beyond a reasonable
doubt standard was an unreasonable application of the
substantive right conferred in Atkins. See Doc. no. 52
at 39. Raulerson, however, has not identified any Supreme Court case clearly establishing that Georgia’s

App. 38
beyond a reasonable doubt standard is an unreasonable application of Atkins.
Raulerson identifies several cases that he believes
establish that Georgia’s burden of proof on mental retardation violate procedural due process under the
Due Process clause: Bailey v. Alabama, 219 U.S. 219,
239 (1911); Speiser v. Randall, 357 U.S. 513, 520 (1958);
Panetti v. Quarterman, 551 U.S. 930, 949-50 (2007);
Ford v. Wainwright, 477 U.S. 399, 424 (1986); Cooper v.
Oklahoma, 517 U.S. 348, 355 (1996); Staub v. City of
Baxley, 355 U.S. 313, 325 (1958); and Davis v. Wechsler,
263 U.S. 22, 24 (1923). However, none of these cases
speak to the constitutionality of burdens of proof for
mental retardation. As the Eleventh Circuit stated in
Hill, AEDPA does not permit this Court to import a
procedural burden of proof requirement into Atkins
and find that a state’s preexisting procedural standards are an unreasonable application of that imported
standard. Hill, 662 F.3d at 1360. Accordingly, due to the
lack of Supreme Court precedent addressing the constitutionality of the burden of proof on mental retardation claims, this Court cannot find that the state
habeas court’s decision was contrary to, or an unreasonable application of, clearly established federal law.
Thus, Raulerson’s Claim III, that the Georgia statute requiring capital defendants to prove their mental
retardation beyond a reasonable doubt violates the
constitution, is DENIED.

App. 39
C. Claim II: Whether Raulerson Is Mentally
Retarded
Raulerson claims that he is mentally retarded and
therefore ineligible for the death penalty under both
the United States and Georgia Constitutions. See
Atkins, 536 U.S. at 304; Fleming v. Zant, 259 Ga. 687
(1989). Under Georgia law, “ ‘[m]entally retarded’ means
having significantly subaverage general intellectual
functioning resulting in or associated with impairments
in adaptive behavior which manifested during the development period.” O.C.G.A. § 17-7-131(a)(3) (2013).
Raulerson challenges the state habeas court’s decision
and alleges that it was contrary to or an unreasonable
application of federal law. The Court disagrees.
a. Adjudication on the Merits in the
State Court Proceedings
Under section 2254(d), the Court must first determine whether there was an adjudication on the merits
of Raulerson’s claim that he is mentally retarded.
Raulerson claims there has not yet been a decision on
the merits of his mental retardation claim either on direct appeal or by the state habeas court.
The Supreme Court of the United States recently
explained that “[a] judgment is normally said to have
been rendered ‘on the merits’ only if it was delivered
after the court . . . heard and evaluated the evidence
and the parties’ substantive arguments.’ ” Johnson v.
Williams, 133 S. Ct. 1088, 1097 (2013) (citing Black’s Law
Dictionary 1199 (9th ed. 2009) (emphasis in original).

App. 40
And “as used in this context, the word ‘merits’ is defined as ‘the intrinsic rights and wrongs of a case as
determined by matters of substance, in distinction from
matters of form.’ ” Id. (citing Webster’s New Int’l Dictionary 1540 (2d. ed. 1954) (emphasis in original). See
also Id. at 1091 (discussing that a merits decision can
come “either on direct appeal or in a collateral state
proceeding”). Additionally, the Eleventh Circuit has explained that “[o]ur case law also makes clear that we
accord AEDPA deference not only to the adjudications
of state appellate courts but also to those of state trial
courts that have not yet been overturned on appeal.”
Loggins v. Thomas, 654 F.3d 1204, 1217 (11th Cir.
2011). See also Shelton v. Sec’y, Dep’t of Corr., 691 F.3d
1348, 1353 (11th Cir. 2012) (stating that the state court
on direct appeal did not apply a procedural bar, and
thus the Court was “compelled to presume that the
court rendered an ‘adjudication on the merits’ entitled
to AEDPA deference.”).
Here, the jury’s determination that Raulerson was
not mentally retarded was an adjudication on the merits of Raulerson’s mental retardation. Raulerson presented a defense at trial of “guilty but mentally
retarded.” See O.C.G.A. § 17-7-131(c)(3). The jury
heard the evidence presented at trial and rejected the
defense. On direct appeal, the Georgia Supreme Court
summarized the evidence bearing on Raulerson’s claim
of mental retardation:
In response to expert testimony presented
by [Raulerson] that tests administered after
the crimes established that [Raulerson] was

App. 41
mentally retarded with an IQ of 69, the State
presented expert testimony [Raulerson’s] IQ
at age 15 (9 years earlier) was 83. The State’s
psychologist opined that there was no indication that [Raulerson] was severely mentally
ill.
268 Ga. at 624. Ultimately, the Court concluded that
this evidence was sufficient to support the jury’s verdict. Id. Under well-established Supreme Court and
Eleventh Circuit precedent, these decisions were adjudications on the merit of Raulerson’s mental retardation and are entitled to deference under section
2254(d).
Raulerson makes two arguments that this conclusion is incorrect. First, he argues that neither the jury’s
determination of his mental retardation nor the Georgia Supreme Court’s affirmance of his conviction was
an adjudication on the merits of his federal claim under Atkins. He claims that because Atkins was not decided until five years after the Georgia Supreme Court
affirmed his conviction, the Georgia Supreme Court
could not have adjudicated that yet-to-be-announced
federal constitutional claim on direct appeal. See Doc.
no. 90 at 8. However, Burgess v. Terry, is instructive:
To the extent that [petitioner] also claims that
even if that standard is not unconstitutional
he is entitled to have it re-applied and the
question of whether he is mentally retarded
determined again in federal court, that claim
has no merit. There is nothing in Atkins v.
Virginia, or any other decision we are aware

App. 42
of, that requires a state court jury’s pre-Atkins
determination of mental retardation to be redone simply because the Atkins decision was
issued after that determination was made in
state court.
478 Fed. Appx. 597, 599 (11th Cir. 2012) (internal citations omitted). This conclusion is reinforced by the reality that Atkins merely established a federal right
that was coextensive with Raulerson’s pre-existing
right under Georgia law. Prior to Atkins, the Georgia
legislature amended O.C.G.A. § 17-7-131 to prohibit
the execution of mentally retarded criminals. While
Atkins did not establish the analogous federal right
until the pendency of Raulerson’s state collateral proceedings, Atkins did not provide more rights than
those given in O.C.G.A. § 17-7-131. Consequently, the
state habeas court, contrary to Raulerson’s allegations,
did not have a new claim to rule upon following the
issuance of Atkins.
Second, Raulerson contends that the Georgia Supreme Court decision cannot properly be considered an
adjudication on the merits of his mental retardation
because the Supreme Court did not make any express
findings of fact on that issue. See Doc. no. 90 at 3-4.
However, the United States Supreme Court recently
explained that AEDPA deference applies to summary
dispositions of a state court. See Richter, 131 S. Ct. at
785 (“[Section] 2254 does not require a state court to
give reasons before its decision can be deemed to have
been adjudicated on the merits.”). The Eleventh Circuit, significantly, has held that “[s]tate court findings

App. 43
of fact can be inferred from its opinion and the record.
Moreover, implicit findings of fact are entitled to deference under § 2254(d) to the same extent as explicit
findings of fact.” Blankenship v. Hall, 542 F.3d 1253,
1272 (11th Cir. 2008). While Raulerson is correct that
the Georgia Supreme Court did not make an explicit
finding of fact that Raulerson was indeed mentally retarded, it was not required to do so to establish AEDPA
deference.
It is evident from its opinion that the Georgia Supreme Court weighed the evidence presented at trial
regarding Raulerson’s mental retardation. Under Supreme Court and Eleventh Circuit precedent, this is
sufficient to render the decision on Raulerson’s mental
retardation on direct appeal an adjudication on the
merits for purposes of Section 2254 review.6 Consequently, the jury’s determination of Raulerson’s mental
retardation on the merits is entitled to deference under
AEDPA. Thus, according to section 2254(d), the Court
must deny Raulerson’s claim unless the adjudication
on the merits resulted in either a decision that was
contrary to, or involved an unreasonable application of,

6

This conclusion is further supported by the Supreme
Court’s discussion in Cone, 556 U.S. at 466-67 (“When a state
court refuses to readjudicate a claim on the ground that it has
been previously determined, the court’s decision does not indicate
that the claim has been procedurally defaulted. To the contrary,
it provides strong evidence that the claim has already been given
full consideration by the state courts and thus is ripe for federal
adjudication.”).

App. 44
clearly established federal law, or a decision that was
based on an unreasonable determination of the facts.
b. Application of Section 2254(d)
Raulerson argues that the Georgia Supreme Court’s
affirmance of his convictions was both an unreasonable
determination of the facts, and an unreasonable application of federal law in violation of section 2254(d). He
points to extensive evidence introduced at the state habeas court’s evidentiary hearing that, he argues, shows
that he is mentally retarded.
The Supreme Court recently held in Cullen v.
Pinholster that “review under § 2254(d)(1) is limited
to the record that was before the state court that adjudicated the claim on the merits.” 131 S. Ct. 1388, 1398
(2011). The State argues that a straightforward application of Pinholster dismisses any evidence presented by Raulerson at the state habeas proceeding.
Raulerson, on the other hand, attempts to distinguish
Pinholster on the basis that Pinholster involved a habeas petitioner that introduced new, additional evidence at the federal (rather than the state) habeas
proceeding. Raulerson argues that Pinholster merely
limits the record under review to the record before
the state habeas court. The Court need not make a determination on this point. Whether the review is restricted to the record which was before the Georgia
Supreme Court or includes the supplemented record
from the state habeas hearing does not affect the outcome of the Court’s analysis. Under either record, it

App. 45
was not unreasonable under Section 2254(d) for the
court to find that Raulerson was not mentally retarded.
Georgia defines “mentally retarded” as “significantly subaverage general intellectual functioning resulting in or associated with impairments in adaptive
behavior which manifested during the developmental
period.” O.C.G.A. § 17-7-131(a)(3). Further:
“significantly subaverage functioning” is generally defined as an IQ of 70 or below. However, an IQ test score of 70 or below is not
conclusive. At best, an IQ score is only accurate within a range of several points, and for
a variety of reasons, a particular score may be
less accurate. Moreover, persons “with an IQ
somewhat lower than 70” are not diagnosed as
being mentally retarded if there “are no significant deficits or impairment in adaptive
functioning.”
Stripling v. State, 261 Ga. 1, 4 (1991). At trial, the jury
heard testimony from two psychologists (Dr. Daniel
Grant and Dr. Gerald Lower) who had examined
Raulerson and opined as to mental retardation. Dr.
Grant testified that Raulerson was mentally retarded
and based this testimony, in part, on the following test
results: a score of 69 on the Kaufman Adolescent and
Adult Intelligence Test, a score of 69 on the StanfordBinet Test (4th ed.), a score of 73 on the Test of Nonverbal Intelligence, a score of 60 on the revised Peabody Picture Vocabulary Test, and a score of 62 on the
revised Slosson Intelligence Test. See Doc. no. 90 at 7. Dr.
Grant testified that these scores all placed Raulerson

App. 46
within the range of mild mental retardation, thus having significant subaverage intellectual functioning. Id.
Dr. Grant also testified that Raulerson suffered
deficits in adaptive functioning during the developmental period. Resp’t Ex. 25 at 51-86. He based this
testimony on his interview of Raulerson’s parents and
review of Raulerson’s school, medical, and criminal records. Specifically, he testified that Raulerson suffered
from major psychological problems from an early age;
including major depressive disorder; that his family
was marked by aggression and physical abuse; that he
began using drugs and alcohol when he was ten years
old; and that he dropped out of school during the ninth
grade. Id. at 63-72. Thus, he concluded that Raulerson
was, to a reasonable degree of medical certainty, mentally retarded under Georgia law. Id. at 96.
The State rebutted this with evidence of two IQ
test scores obtained by Raulerson prior to the age of
eighteen and the testimony of Dr. Lower. First, the
State presented evidence that when Raulerson was
twelve years old he obtained a score of 78 and at age
fourteen he obtained a score of 83. Resp’t Ex. 26 at 7,
23. Second, Dr. Lower testified that he administered
the Revised Wechsler Adult Intelligence Scale and that
Raulerson obtained a score of 69. However, he opined
that this score was likely due to malingering.7 Id. at 36.
When asked whether there was any convincing evidence demonstrating that Raulerson was diagnosed as
7

“Malingering” means to “pretend incapacity.” See Webster’s
New Collegiate Dictionary 690 (1979).

App. 47
mentally retarded before the age of eighteen, Dr. Lower
testified there was “[a]bsolutely none whatever.” Id. at
37. However, Dr. Lower testified that he did not conduct any evaluation of Raulerson’s adaptive functioning.
Considering this evidence the jury convicted
Raulerson and rejected his “guilty but mentally retarded” defense. On direct appeal, the Georgia Supreme Court held:
In response to expert testimony presented by
appellant that tests administered after the
crimes established that appellant was mentally retarded with an IQ of 69, the State presented expert testimony [that] appellant’s IQ
at age 14 (9 years earlier) was 83. The State’s
psychologist opined that there was no indication that appellant was severely mentally ill.
The evidence summarized above was sufficient to authorize a rational trier of fact
to find appellant guilty beyond a reasonable
doubt of two malice murders and felony murder, burglary, necrophilia, and possession of a
firearm during the commission of a crime and
during the commission of a felony.
268 Ga. at 624. Raulerson has not shown by clear
and convincing evidence that this determination was
objectively unreasonable. See Wiggins v. Smith, 539
U.S. 510, 521 (2003); 28 U.S.C. § 2254(e)(1). Raulerson
failed to prove the first and last prong of the mental
retardation standard – that he had subaverage intellectual functioning during the developmental period –

App. 48
as he had two scores prior to age eighteen well above
70. And, importantly, he could not present any evidence
of any IQ scores before age eighteen in the 70 or below
range. Thus, although there was evidence before the
jury and the Georgia Supreme Court indicating that
Raulerson may be mentally impaired or mentally ill,
the jury found that Raulerson had not shown beyond a
reasonable doubt that he was mentally retarded. He
has not met his burden in showing that upon the record on direct appeal this determination was unreasonable.
However, even assuming the record before the
Court properly included the additional testimony produced at the state habeas hearing, Raulerson, nevertheless, is unable to show that the determination of
either the Georgia Supreme Court or the state habeas
court was unreasonable in law or fact. Raulerson argues that the state habeas court’s denial of relief was
unreasonable in light of the additional evidence of
mental retardation presented at the state habeas evidentiary hearing for three reasons. First, Raulerson argues that the state’s expert, Dr. Lower, did an “aboutface” and has “changed his conclusion” about Raulerson’s
retardation. Doc. no. 90 at 11. Second, Raulerson argues that the additional evidence presented “strongly
confirmed Dr. Grant’s original diagnosis” and “would
have had a bearing on Dr. Grant’s findings and testimony.” Id. And third, Raulerson argues that with the
supplemented evidence both experts would have accounted for the Flynn Effect, “which would mean that

App. 49
Mr. Raulerson’s childhood IQ test scores could not rule
out a diagnosis of mental retardation.” Id. at 9.
First, and most importantly, Raulerson argues
that the state habeas court’s denial of his Atkins claim
was an unreasonable determination of facts in light
of Dr. Lower’s allegedly changing his conclusion that
Raulerson was not mentally retarded. Citing the additional evidence, Dr. Lower stated in his affidavit that:
“these materials provide clear evidence of deficits in Mr. Raulerson’s adaptive skill functioning . . . [t]hese deficits were apparent prior to
the age of 18 . . . [h]ad I been provided with
this information, I would have testified that
Mr. Raulerson’s IQ (including the scores obtained by Dr. Grant) and his deficits in adaptive
functioning apparent prior to age 18 supports
a diagnosis of Mental Retardation.”
Resp’t Ex. 58 at 376. Raulerson contends this admission renders the state habeas court’s determination
unreasonable because “based on the evidence presented
at the hearing, no examining expert would have testified that Mr. Raulerson was not mentally retarded.”
Doc. no. 90 at 12. However, this is misleading.
At the hearing, Dr. Lower was asked “[n]ow, after
looking at all the materials that were provided to you
by Mr. Raulerson’s attorneys, you still can’t rule out
mental retardation, can you?” He responded, “No, I
can’t.” Resp’t Ex. 58 at 365. When asked again “[s]o you
still can’t affirmatively diagnose him as being mentally
retarded,” Dr. Lower responded flatly “no” and that he

App. 50
would need more information still. Id. Ultimately, Dr.
Lower testified that he “would still agree . . . that the
evidence supports a diagnosis of mental retardation.”
Id. at 380. So despite acknowledging that the adaptive functioning analysis likely supports a diagnosis
of mental retardation (in light of the additional evidence), he remained steadfast in his opinion as it related to his testimony concerning the intellectual
functioning and age of onset inquiries. Consequently,
Raulerson has not shown by clear and convincing evidence that the decision by either the Georgia Supreme
Court or the state habeas court was unreasonable under Section 2254(d).
Similarly, Raulerson’s argument that the additional evidence confirmed Dr. Grant’s diagnosis and
would have had a bearing on his findings and testimony is unpersuasive. Raulerson argues that the additional information presented at the hearing “would
have had a bearing on Dr. Grant’s findings and testimony” and “strongly confirmed Dr. Grant’s original diagnosis.” Doc. no. at 10-11. However, this is insufficient
for this Court to find that either the Georgia Supreme
Court’s or the state habeas court’s determination was
unreasonable. The additional evidence presented focused on supplementing the adaptive functioning evidence that was presented to the trial jury. However, the
Georgia Supreme Court’s brief analysis focused on the
intellectual functioning inquiry and the two IQ scores
above the mental retardation range. Despite supplementing the evidence on the adaptive functioning prong,
Raulerson has not shown by clear and convincing

App. 51
evidence that either the Georgia Supreme Court’s or
the state habeas court’s determination was unreasonable.
Finally, Raulerson argues that under the supplemented record his childhood IQ scores of 78 and 83
could not rule out a diagnosis of mental retardation because all experts, including Dr. Lower, now agree that
they should have accounted for the Flynn Effect. However, this argument fails. First, Raulerson has failed to
show any Supreme Court case requiring an accounting
for the Flynn Effect or any other manipulative scoring
tool to lower Raulerson’s IQ scores of 78 and 83 to the
mental retardation range of 70. Moreover, the Eleventh Circuit has held that there is “no uniform consensus regarding the application of the Flynn effect in
determining a capital offender’s intellectual functioning.” Thomas v. Allen, 607 F.3d 749, 758 (11th Cir. 2010).8
8

The Eleventh Circuit noted that “[n]umerous courts recognize the Flynn effect.” Thomas, 607 F.3d at 757-58 (11th Cir. 2010).
See e.g., Walker v. True, 399 F.3d 315, 322-23 (4th Cir.2005) (stating that on remand, the district court should consider the Flynn
effect evidence to determine if petitioner’s IQ score is overstated);
United States v. Davis, 611 F.Supp.2d 472, 486-88 (D. Md. 2009)
(considering Flynn effect in evaluation of defendant’s intellectual
functioning); People v. Superior Court, 28 Cal. Rptr. 3d 529, 55859 (Cal. Ct. App. 2005), overruled on other grounds by 40 Cal. 4th
999, 56 Cal. Rptr. 3d 851, 155 P.3d 259 (2007) (recognizing that
Flynn effect must be considered); State v. Burke, No. 04AP-1234,
2005 WL 3557641, at *13 (Ohio Ct. App. Dec. 30, 2005) (stating
that court must consider evidence on Flynn effect, but it is within
court’s discretion whether to include it as a factor in the IQ score).
There are also courts that do not recognize the Flynn effect. See
In re Mathis, 483 F.3d 395, 398 n. 1 (5th Cir. 2007) (noting that
circuit has not recognized Flynn effect as scientifically valid);

App. 52
The Court also notes that no medical association recognizes its validity. See id. at 757. Thus, it was not an
unreasonable determination by either the Georgia Supreme Court or the state habeas court to not apply the
Flynn effect in determining whether Raulerson suffered from subaverage intellectual functioning.
Accordingly, considering either the record under
review by the Georgia Supreme Court or the supplemented record before the state habeas proceeding,
Raulerson has failed to show by clear and convincing
evidence that the adjudication on the merits of his
mental retardation claim was unreasonable.9
Berry v. Epps, No. 1:04-CV-328-D-D, 2006 WL 2865064, at *35
(N.D. Miss. Oct. 5, 2006) (refusing to consider Flynn effect); Bowling v. Commonwealth, 163 S.W.3d 361, 374-75 (Ky. 2005) (noting
that because Kentucky statute unambiguously sets IQ score of 70
as cutoff, courts cannot consider Flynn effect or SEM).
9
Raulerson claims that if the Court limits the record under
review to that which was before the Georgia Supreme Court, that
he is then entitled to an evidentiary hearing in federal court
to present “the compelling evidence of actual mental retardation” that he presented to the state habeas court. Doc. no. 90 at
5-6. While an evidentiary hearing would not be precluded by
2254(e)(2) because Raulerson was diligent in seeking to develop
the factual bases of this claim in state court, the Court finds that
an additional hearing is unnecessary. See Schriro, 550 U.S. at 474
(“[I]f the record refutes the applicant’s factual allegations or otherwise precludes habeas relief, a district court is not required to
hold an evidentiary hearing . . . [Additionally] an evidentiary
hearing is not required on issues that can be resolved by reference
to the state court record.”).
Here, the Court reiterates that even considering the evidence
presented to the state habeas court, Raulerson has not shown by
clear and convincing evidence that the state habeas court’s determination was unreasonable as a matter of clearly established

App. 53
c. Miscarriage of justice exception
In addition to the arguments above, Raulerson
also argues that he is “actually innocent” of the death
sentence because he is mentally retarded, and thus,
the state habeas court’s denial of this claim under the
miscarriage of justice standard was unreasonable under section 2254(d). The Supreme Court of the United
States recently explained that under the stringent
miscarriage of justice standard “a petitioner does not
meet the threshold requirement unless he persuades
the district court that, in light of the new evidence, no
juror, acting reasonably, would have voted to find him
guilty beyond a reasonable doubt.” McQuiggin v. Perkins, 133 S. Ct. 1924, 1928 (2013) (quoting Schlup v.
Delo, 513 U.S. 298, 329 (1995)). The Schlup standard,
the Court noted, is “demanding” and “seldom met.” Id.
Here, the state habeas court adjudicated the merits of Raulerson’s claim under the miscarriage of justice standard. In its final Order, the court held:
that Petitioner failed to satisfy by sufficient
new and reliable evidence the stringent miscarriage of justice standard as to warrant the
eradication of the jury’s verdict on the issue of
Petitioner’s alleged mental retardation.
Resp’t Ex. 94 at 5. Raulerson even concedes that the
court “noted, based on the evidence presented at the
habeas hearing, that Petitioner had not satisfied the
federal law. Accordingly, the Court will exercise its discretionary
authority to not hold a hearing because the exhaustive state court
record is fully developed with respect to this claim.

App. 54
miscarriage of justice standard.” Doc. no. 90 at 6. From
its Order, it is apparent that the court heard the new
testimony, evaluated the evidence, applied the appropriate standard and cited to relevant federal and state
law. This, undoubtedly, was an adjudication on the merits of Raulerson’s claim under the miscarriage of justice standard. Consequently, its determination is not to
be upset unless it is unreasonable in light of clearly
established federal law or in light of the facts presented at the hearing.
Raulerson does not cite to any Supreme Court
case under which the state habeas court’s decision
could be determined to be an unreasonable application
of clearly established federal law. Rather, Raulerson
claims that the decision was an unreasonable determination of the facts “in light of the evidence . . . in which
all experts qualified to diagnose mental retardation
agreed that the evidence supported a diagnosis of mental retardation.” Id. As explained above, the court’s determination was not unreasonable.
The new evidence produced at the habeas hearing
focused primarily on testimony concerning the adaptive functioning prong of the mental retardation standard. With respect to that specific prong, Dr. Lower
testified that the evidence “support[ed] a diagnosis of
mental retardation.” Resp’t Ex. 58 at 380. However, he
also testified that even considering this new evidence
of significant deficits in Raulerson’s adaptive functioning, he still could not “affirmatively diagnose him as
being mentally retarded.” Id. at 365. He explained, under oath, that doubts persisted with respect to the first

App. 55
and third prongs of the mental retardation analysis.
Because Raulerson’s only IQ scores before the age of
eighteen were 78 and 83, which are “pretty well above
the range” and “there [was] no way to determine” when
Raulerson sunk below the range, he still could not diagnose Raulerson as mentally retarded. Id. at 380.
Considering this evidence, the state habeas court’s
denial of Raulerson’s claim under the miscarriage of
justice standard was not an unreasonable determination of the facts. Where the testifying expert could not
confirm a diagnosis of mental retardation despite the
new evidence, surely, a reasonable juror could find
Raulerson was not mentally retarded. Accordingly, the
state habeas court’s denial of Raulerson’s claim under
the miscarriage of justice standard was not unreasonable, and therefore, this claim is DENIED.
D. Claim IV: Whether the Sentencing Phase
Instructions Permitted the Jury to Consider Raulerson’s Mental Retardation in
Mitigation
Raulerson asserts that the trial court’s sentencing
instructions “failed to inform the jury that the extremely high standard of ‘beyond a reasonable doubt’
no longer applied to the issue of mental retardation”
and “failed to inform the jury that it could reconsider
the issue of mental retardation after it already had
made a determination on that issue under a different
standard at the guilt-innocence phase.” Doc. no. 66 at
60. Specifically, Raulerson argues that the instruction

App. 56
that the jury could consider all of the evidence presented at trial was insufficient to inform the jurors
that they could reconsider an issue they had already
decided and that they could apply a different standard
to evidence relevant to that issue. Id. Raulerson argues
that the state habeas court’s rejection of this jury instruction claim was contrary to, or an unreasonable application of, clearly established federal law. Id. at 59.
In reviewing a challenge to a trial court’s jury instructions, a court must first focus on how a reasonable
juror would understand the specific language challenged. Devier v. Zant, 3 F.3d 1445, 1463 (11th Cir.
2013). If the specific charge is found to be unconstitutional, then the instructions, as a whole, must be
examined to determine whether the entire charge reflected a correct statement of the law. Id.; see also
California v. Brown, 479 U.S. 538, 541 (1987); Peek v.
Kemp, 784 F.2d 1479, 1489 (11th Cir. 1986).
The state habeas court reviewed the trial court’s
sentencing charges. Specifically, the state habeas court
looked to the following instructions:
In arriving at this determination, you
are authorized to consider all of the evidence
received here in court in both stages of this
proceeding, presented by the State and the defendant throughout the trial before you.
[Y]ou shall also consider the facts and circumstances, if any, in extenuation, mitigation,
and aggravation of punishment. Mitigating or
extenuating facts or circumstances are those
which you the jury find do not constitute a

App. 57
justification or excuse for the offense in question, but which, in fairness and mercy, may be
considered as extenuating or reducing the degree of moral culpability or blame.
Members of the jury, under the laws of
this state, a person found guilty of murder
shall be punished by death, or life imprisonment without parole or life imprisonment.
Under our law, a sentence of death or life imprisonment without parole shall not be imposed unless the jury finds, in writing, at least
one or more statutory aggravating circumstances, and next sixes [sic] the sentence of
death or life without parole in its verdict.
It is not required and it is not necessary
that you find any extenuating or mitigating
facts or circumstances in order for you to return a verdict setting the penalty to be imposed at life imprisonment . . . Whether or not
you find any extenuating or mitigating facts
or circumstances, you are authorized to fix the
penalty at life imprisonment.
If you find from the evidence, beyond a
reasonable doubt, the existence in this case of
one or more aggravation circumstances as
given to you in charge by the Court, then you
would be authorized to recommend the imposition of a sentence of death, but you would
not be required to do so. If you should find
from the evidence in this case, beyond a reasonable doubt, the existence of one or more
aggravating circumstances as given to you
in charge by the Court, you would also be

App. 58
authorized to sentence the defendant to life in
prison. You may fix the penalty at life imprisonment, if you see fit to do so, for any reason
satisfactory to you, or without any reason.
Resp’t Ex. 94 at 61-62. After reviewing these jury instructions, the state habeas court found that the jury
was not misled into believing that the beyond a reasonable doubt standard applicable to a finding of mental
retardation in the guilt phase applied to its consideration of alleged mental retardation as evidence in mitigating circumstances was sufficient.” Id. at 62. The
state habeas court based this finding on the trial
court’s instruction to the jury that they could consider
anything in mitigation of punishment and that they
would vote for a sentence less than death for any reason or for no reason at all. Id.
Raulerson argues that the state habeas court’s determination is an unreasonable application of Penry v.
Lynaugh, 492 U.S. 302 (1989). In the subsequent Supreme Court case, Penry v. Johnson, the Court held
that once a state habeas petitioner establishes “a reasonable likelihood that the jury believed that it was not
permitted to consider” some mitigating evidence, he
has shown that the error was not harmless and therefore is grounds for reversal. 532 U.S. 782, 786-88 (2001)
(citing Boyde v. California, 494 U.S. 370 (1990)). In
more recent years, the Supreme Court has repeatedly
emphasized that a Penry violation exists whenever a
statute, or a judicial gloss on a statute, prevents a jury
from giving meaningful effect to mitigating evidence
that may justify the imposition of a life sentence rather

App. 59
than a death sentence. Brewer v. Quarterman, 550 U.S.
286, 289 (2007).
However, the Supreme Court has “never gone further and held that the state must affirmatively structure in a particular way the manner in which juries
consider mitigating evidence. And indeed, [Supreme
Court] decisions suggest that complete jury discretion
is constitutionally permissible.” Buchanan v. Angelone,
522 U.S. 269, 276 (1998).
Here, the jury instructions did not violate these
constitutional principles. The instruction did not foreclose the jury’s consideration of any mitigating evidence. By directing the jury to base its decision on “all
the evidence,” the instruction afforded jurors an opportunity to consider mitigating evidence. The instructions inform the jury that the death penalty shall not
be imposed unless one of the aggravating factors are
found, but instructed that even if the jury finds one of
those aggravating factors, the jury “would also be authorized to sentence the defendant to life in prison.”
The jury was further instructed that they “may fix the
penalty at life imprisonment, if you see fit to do so, for
any reason satisfactory to you, or without any reason.”
The jury was thus allowed to impose a life sentence
even if it found the aggravating factor proved. Moreover, in contrast to the Texas special issues scheme in
question in Penry, the instructions here did not constrain the manner in which the jury was able to give
effect to mitigation.

App. 60
Accordingly, the state habeas court’s rejection of
this claim was not contrary to, or an unreasonable application of, clearly established federal law. This claim
is DENIED.
E.

Claim VI: Whether Raulerson Is Severely
Mentally Ill and Therefore Ineligible
for the Death Penalty under the Eighth
Amendment

In his petition, Raulerson argues that because he
“suffers from severe mental illness, he may not be executed under the Eighth Amendment.” Doc. no. 1 at 50.
However, there appears to be confusion over the status
of this claim. In his Brief in Support of his Petition,
Raulerson acknowledges that he “is not presently seeking habeas corpus relief from this Court on the basis of
[this claim].” Doc. no. 66 at 6. Yet, he later states this
claim is ripe for determination as “previously briefed.”
Doc. no. 86 at 12 (referencing doc. no. 1 at 50-52). Regardless, the Court will address the claim out of an
abundance of caution.
The state habeas court held that this claim was
“non-cognizable” because “[c]ontrary to Petitioner’s argument, there is no constitutional prohibition against
executing the mentally ill.” Resp’t Ex. 94 at 4 (citing
Colwell v. State, 273 Ga. 634 (2001)). Raulerson does
not argue this determination was contrary to, or an unreasonable application of, clearly established federal
law. In fact, Raulerson fails to cite to any Supreme
Court case supporting his contention that the Eighth

App. 61
Amendment prohibits the execution of mentally ill
criminals. Rather, Raulerson argues that the “Eighth
Amendment’s prohibition on cruel and unusual punishment is measured by evolving standards of decency
that mark the progress of a maturing society.” Doc. no.
86 at 32 (citing Furman v. Georgia, 408 U.S. 238, 242
(1972)). He contends that “numerous court cases and
state legislation evidence a growing consensus that
those with severe mental illness do not warrant the
death penalty.” Id. at 32-33.
Section 2254(d), however, does not permit the
Court to entertain such an argument. Raulerson has
not challenged, or even referenced, the state habeas
court’s adjudication of this claim. Moreover, Raulerson
has failed to point to any Supreme Court case supporting his contention. Whether there is a growing consensus of state courts and legislatures recognizing this
claim is irrelevant under AEDPA review. Consequently, the state habeas court’s decision was not unreasonable and the Court must deny this claim under
Section 2254(d). See Richter, 131 S. Ct. at 786 (“It is
not an unreasonable application of clearly established
Federal law for a state court to decline to apply a specific legal rule that has not been squarely established
by this Court.”). Thus, this claim is DENIED.

App. 62
F. Claim VII: Whether Raulerson Was Denied
Access to Competent Mental Health Assistance
Raulerson claims that he is “entitled to a new trial
and sentencing proceeding” because he was denied access to competent mental assistance in violation of his
Sixth, Eighth, and Fourteenth Amendment rights. Doc.
no. 1 at 53. Specifically, Raulerson argues that “the defense experts were hindered in their ability to perform
a competent evaluation by defense counsel’s failure to
provide them with adequate background information.”
Doc. no. 66 at 68. He speculates that “[h]ad this information been presented to the experts and the jury,
there is a reasonable probability that the outcome of
either phase of trial would have been different.” Id. The
state habeas court found that Raulerson’s claim was,
non-cognizable. Resp’t Ex. 94 at 4. Raulerson contends
this finding was contrary to, or an unreasonable application of, federal law.
The United States Supreme Court has recognized
that when the defendant has demonstrated his sanity
will be a significant factor at trial, the state must “assure the defendant access to a competent psychiatrist
who will conduct an appropriate examination and assist in evaluation, preparation, and presentation of the
defense.” Ake v. Oklahoma, 470 U.S. 68, 83 (1985). The
Court explained further that “[o]ur concern is that the
indigent defendant have access to a competent psychiatrist.” Id. The Eleventh Circuit further clarified that
Ake protects against the denial of due process due to
trial court error. Blanco v. Sec’y, Fla. Dept. of Corr., 688

App. 63
F.3d 1211, 1228 (11th Cir. 2012) (“[I]t must be the trial
judge, not the mental health expert, who denies the
defendant due process by taking some action that renders the proceeding fundamentally unfair . . . the defendant must point to an error of the trial court that
deprived him of due process of law to make out an Ake
claim.”).
In Blanco, the defendant complained that his due
process rights were violated in two ways: first, by the
initial appointment of his expert and, second, by his
expert’s incompetent review, preparation, and performance testifying. Id. at 1227. The Court found the trial
court did not violate the defendant’s due process in the
appointment of his expert, citing the expert’s impressive credentials as well as the trial court’s appointment
of a psychologist, a neuropsychologist, a neurologist,
and a sociologist to assist in the defense. The Court
also found that “[t]here is nothing in United States
Supreme Court precedent that would support [the
defendant’s second claim.]” Id. at 1230.
Here, Raulerson’s claim similarly fails. He alleges:
Mr. Raulerson’s mental health experts were
unable to provide effective assistance because
they generally lacked a complete record upon
which to base their conclusions. As discussed
in Petitioner’s opening brief, and above, trial
counsel failed to provide defense experts with
pertinent background information and documents indicating the full extent of Mr. Raulerson’s mental health limitations. During state
habeas proceedings, Mr. Raulerson produced

App. 64
affidavits indicating that the testimony of
both Mr. Raulerson’s and the State’s expert
witnesses would have been substantially more
favorable to Mr. Raulerson had those experts
had access to his complete mental health record. Without a full and appropriate evaluation
of his mental health, Mr. Raulerson was denied “a fair opportunity to present his defense.”
Doc. no. 72 at 60-61 (emphasis added). Crucially, Raulerson fails to allege – either in his petition, his brief in
support of his petition, or his reply brief in support of
his petition – a single action by the trial court that violated his due process rights. Rather, he repeatedly asserts that it was his trial counsel’s failure to provide a
complete record to his experts that deprived him of a
fundamentally fair proceeding. See Doc no. 1 at 52-54;
doc no. 66 at 66-69; doc. no. 72 at 59-61. Ake does not
go this far. And Raulerson has not pointed to any other
Supreme Court precedent supporting such a claim.
Even putting aside Raulerson’s failure to identify
any error by the trial court, Dr. Grant, despite the alleged shortcomings of counsel, testified that Raulerson
was, indeed, mentally retarded. Additionally, he testified that he arrived at this conclusion after conducting
“approximately 25 different tests plus interviews with
Mr. Raulerson and both his parents” as well as reviewing “schools records, medical records, [and] some criminal records.” Resp’t Ex. 25 at 19. Through the course
of these examinations, Dr. Grant testified that he spent
somewhere between twelve and fifteen hours with

App. 65
Raulerson. Id. Plainly, the record demonstrates that
Raulerson’s mental health assistance was, at a minimum, competent, if not exhaustive. Furthermore, the
trial court provided funds for the defense to hire not
only Dr. Grant, but also a neurologist, a psychiatrist,
and a neuropsychologist. See Resp’t Ex. 81, at 7757;
Resp’t Ex. 79, at 2000; Resp’t Ex. 81, at 7753.
Stripped of its conclusory allegations, Raulerson’s
Ake claim fails to allege facts bringing it within the
ambit of Ake. Despite his attempt to distinguish this
claim from his ineffective assistance of counsel claim,
Raulerson does not raise any alleged error committed
by the trial court. Rather, he focuses exclusively on the
alleged errors by his trial counsel in preparing his complete team of state-provided experts. Accordingly,
Raulerson failed to present any Supreme Court precedent that supports such a claim. As a result, the state
habeas court did not act contrary to clearly established
federal law, and its decision was not based on an unreasonable determination of the facts in light of the evidence presented. Raulerson’s claim, consequently, is
DENIED.
G. Claim XII: Whether Raulerson’s Death
Sentence Is a Disproportionate and Arbitrary Application of the Death Penalty
Raulerson asks the Court to vacate his death
sentence, claiming it was imposed “arbitrarily and
capriciously, and pursuant to a pattern and practice
of discrimination in the administration of the death

App. 66
penalty in Georgia, thereby rendering [his] sentence of
death unlawful and in violation of [his] rights under
the Fifth, Sixth, Eighth, and Fourteenth Amendments
to the United States Constitution.” Doc. no. 1 at 5960.
On direct appeal, the Supreme Court of Georgia held:
We do not find that Raulerson’s death sentence was imposed under the influence of passion, prejudice, or other arbitrary factor. The
death sentence is not excessive or disproportionate to penalties imposed in similar cases,
considering both the crime and the defendant.
The similar cases listed in the Appendix support the imposition of the death sentence in
this case.
Raulerson, 268 Ga. at 633. The Court listed ten cases
in its Appendix. Id. The state habeas court found that
Raulerson’s claim that his death sentence was imposed
arbitrarily, capriciously, and discriminatorily was not
reviewable based on res judicata principles.
Raulerson claims that the Georgia Supreme Court’s
proportionality review was cursory and “wholly lacking” in violation of clearly established federal law. Doc.
no. 66 at 69. He argues that the United States Supreme
Court’s approval of Georgia’s capital punishment statute in Gregg v. Georgia was premised in significant
part on the proportionality review conducted by the
Georgia Supreme Court. Id. (citing Walker v. Georgia,
129 S. Ct. 453, 454 (2008) (Stevens, J., respecting the
denial of certiorari)). Justice Stevens explained that
meaningful proportionality review must include a comparison to cases where similarly situated defendants

App. 67
had not been put to death. Walker, 129 S. Ct. at 454. In
the absence of this safeguard, he expressed concern
that “the likely results of such a truncated review . . .
is the arbitrary or discriminatory imposition of death
sentences.” Id. at 457. Raulerson argues that none of
the ten comparative cases include a defendant that
presented evidence of mental retardation, and consequently, his death sentence should be vacated as it fails
the constitutional test imposed by Walker.
The question before the Court is whether the
Georgia Supreme Court’s decision on this issue was
“contrary to, or an unreasonable application of, clearly
established Federal law.” 28 U.S.C. § 2254. “Clearly
established federal law” consists of the “holdings . . . of
the [United States Supreme] Court’s decisions as of the
time of the relevant state-court decision.” Williams v.
Taylor, 529 U.S. 362, 412 (2000). First, the Court notes
that there is no constitutional right to proportionality
review. Neither Gregg v. Georgia nor any subsequent
cases have held that Georgia courts must conduct any
proportionality review. The United States Supreme
Court, in fact, has held that it would be error to conclude “that Gregg required proportionality review.”
Pulley v. Harris, 465 U.S. 37, 46 (1984). Second, Walker
is not binding because Justice Stevens’s statement respecting the denial of the petition for writ of certiorari
is not “clearly established federal law.”10 And even
10

Moreover, Justice Thomas responded to Justice Stevens in
his concurrence of the denial of the petition for certiorari: “Justice
Stevens acknowledged in his Pulley concurrence that his interpretation of Gregg and Zant differed from the Court’s. He continues

App. 68
assuming it was Supreme Court precedent, it was not
decided until eleven years after the Georgia Supreme
Court rendered the decision at issue here. Thus,
Raulerson has failed to show that the Georgia Supreme Court’s review was contrary to, or an unreasonable application of Supreme Court precedent. Further,
Raulerson has not shown that the Georgia Supreme
Court’s determination was based on any unreasonable
determinations of facts.
Additionally, the Court refuses Raulerson’s invitation to conduct its own, independent, assessment of
the Georgia Supreme Court’s proportionality review in
light of Eleventh Circuit precedent. The Eleventh Circuit has cautioned:
A federal habeas court should not undertake
a review of the state supreme court’s proportionality review and, in effect, “get out the record” to see if the state court’s findings of fact,
their conclusion based on a review of similar
cases, was supported by the “evidence” in similar cases. To do so would thrust the federal
judiciary into the substantive policy making
area of the state. It is the state’s responsibility
to determine the procedure to be used, if any,
in sentencing a criminal to death.
Moore v. Balkcom, 716 F.2d 1511, 1518 (11th Cir. 1983) (internal citations omitted). More specifically, the Eleventh
to adhere to his distinctive interpretation of Gregg and Zant today. . . . But, under this Court’s precedents, Georgia is not required to provide any proportionality review at all.” Walker v.
Georgia, 129 S Ct. at 481 (2008).

App. 69
Circuit has rejected the very claim Raulerson raises
here:
We also reject [the] claim that the [state] . . .
courts violated his constitutional rights by not
conducting a detailed determination of the
proportionality and appropriateness of his
death sentence in comparison with other capital murders. The Constitution does not require a proportionality review. And we refuse
to mandate as a matter of federal constitutional law that where, as here, state law
requires such review, courts must make an
explicit, detailed account of their comparisons. Based on their own past experience in
reviewing capital punishment cases, state appellate courts “can rationally distinguish between those individuals for Whom the death
penalty is an appropriate sanction and those
for whom it is not,” without listing in their
opinions the facts that did or did not justify
the imposition of the death penalty in prior
cases.
Lindsey v. Smith, 820 F.2d 1137, 1154 (11th Cir. 1987)
(internal citations omitted). Consequently, relief on
this claim is DENIED.
H. Claim XIV: Whether Raulerson Is Entitled to Relief Due to Errors Considered in
the Aggregate
In his final prayer for relief, Raulerson contends
that the cumulative effect of “numerous and varied
constitutional” errors entitle him to habeas relief. See

App. 70
Doc. no. 1 at 65. He raised this claim in his state habeas
petition and the state habeas court held the claim to
be non-cognizable because Georgia courts do not recognize the cumulative error rule. State Habeas Order, at
5 (citing Head v. Taylor, 273 Ga. 69 (2000)).
The Supreme Court of the United States has not
recognized a “cumulative error” doctrine in habeas proceedings. See Forrest v. Florida Dept of Corr., 342 Fed.
Appx. 560, 564-65 (11th Cir. 2009) (“The Supreme
Court has not directly addressed the applicability of
the cumulative error doctrine in the context of an ineffective assistance of counsel claim.”).11 Likewise, the
Eleventh Circuit has yet to recognize a “cumulative error” doctrine in federal habeas proceedings.12 Furthermore, as the state habeas court noted, Georgia courts
do not recognize the cumulative error doctrine. Thus,
Raulerson has not shown the decision by the state

11

However, “[t]he Supreme Court has held, in the context of
an ineffective assistance claim, that ‘there is generally no basis
for finding a Sixth Amendment violation unless the accused can
show how specific errors of counsel undermined the reliability of
the finding of guilt.’ ” Forrest, 342 Fed. Appx. at 565 (citing United
States v. Cronic, 466 U.S. 648, 659 n.26 (1984)).
12
However, the Eleventh Circuit has held, on direct appeal
of a federal conviction, that the cumulative effect of several errors
that are harmless by themselves could so prejudice the defendant’s right to a fair trial that a new trial may be necessary. See
United States v. Ramirez, 426 F.3d 1344, 1353 (11th Cir. 2005)
(“[T]he ‘cumulative effect’ of multiple errors may so prejudice a
defendant’s right to a fair trial that a new trial is required, even
if the errors considered individually are non-reversible.”) (quoting
United States v. Thomas, 62 F.3d 1332, 1343 (11th Cir. 1995)).

App. 71
habeas court was contrary to, or an unreasonable application of, clearly established federal law.
In any event, cumulative error analysis is implicated only where there are multiple, harmful errors.
See United States v. Waldon, 363 F.3d 1103, 1110 (11th
Cir. 2004) (where no individual errors have been
demonstrated, no cumulative errors can exist); United
States v. Barshov, 733 F.2d 842, 852 (11th Cir. 1984)
(“Without harmful errors, there can be no cumulative
effect compelling reversal.”); see also Sneed v. Fla.
Dep’t of Corrs., 496 F. App’x 20, 28 (11th Cir. 2012)
(“There are no errors to accumulate, and the state
court’s rejection of [a cumulative error] claim [is] not
contrary to or an unreasonable application of Supreme
Court law.”). Thus Raulerson must show error with respect to at least two of his individual claims. He has
not.
As discussed above, the Court finds no merit to
any of Raulerson’s individual alleged errors. Considered in the aggregate, their cumulative effect also falls
short of depriving Raulerson a fundamentally fair
trial. See Bronstein v. Wainwright, 646 F.2d 1048 (11th
Cir. 1981) (“[A] state trial must be so ‘fundamentally
unfair’ as to amount to a denial of due process before
federal habeas relief can be appropriately applied.”)
(internal quotation and citation omitted). Therefore,
Raulerson is not entitled to federal relief on his “cumulative effect” argument.

App. 72
IV.

Conclusion

For the reasons set forth above, Petitioner has
failed to show that he is entitled to habeas corpus relief under 28 U.S.C. § 2254. Accordingly, the Court DENIES the Petitioner’s Petition for Writ of Habeas
Corpus (doc. no. 1). The Clerk is directed to ENTER
JUDGMENT in favor of Respondent and CLOSE this
case.
ORDER ENTERED at Augusta, Georgia, this
30th day of September, 2013.
/s/ J. Randal Hall
HONORABLE
J. RANDAL HALL
UNITED STATES
DISTRICT COURT
SOUTHERN DISTRICT
OF GEORGIA

App. 73
IN THE SUPERIOR COURT
OF CHATHAM COUNTY
STATE OF GEORGIA
THE STATE OF GEORGIA

]
]
-V]
BILLY DANIEL RAULERSON, ]
]
Defendant
]
]
]

CASE NUMBER
CR94-2599-C
(Chatham)
INDICTMENT
NUMBER
94R-036

(Ware)

A Trial, held before the HONORABLE FRANK
S. CHEATHAM, JR., SENIOR JUDGE, SUPERIOR COURTS OF GEORGIA, and a Jury, said
trial proceedings held in Courtroom J of the Chatham
County Courthouse, Savannah, Georgia, as follows:
Tuesday -Saturday, February 20 - 24; Monday - Saturday, February 26 - March 2; and, Monday - Thursday,
March 4 - 7, 1996.
--------------------VOLUME TWELVE
of twenty volumes
Monday, March 4, 1996
CLOSING ARGUMENTS/CHARGE OF COURT
JURY DELIBERATIONS
Janice H. Thrift
OFFICIAL CERTIFIED COURT REPORTER - B-923
WAYCROSS JUDICIAL CIRCUIT

App. 74
ROUTE 2, BOX 435
WAYCROSS, GEORGIA 31501
-----------------------------------------------------------------------

OFFICE: (912) 285-4833
HOME: (912) 285-1947
*

*

*

[114] (CLOSING ARGUMENT ON BEHALF OF
THE DEFENDANT GIVEN BY MR. WILSON AS
FOLLOWS:)
MR. WILSON: Your Honor, ladies and gentlemen of the jury, the last word, except those of Judge
Cheatham and yourself, are about to come about now.
After nearly 50 years at the bar and engaging in hundreds of jury cases, [115] I am coming down to the sunset of my legal career. In those many years, and the
many trials that I’ve engaged in, I have gained an admiration for the American jury system that far surpasses anything else that would fit into this category
that we have, that would fit into the jurisprudence under which I have studied, practiced under. The jury system may not be perfect, but it is so far much better
than anything that comes in second, that there’s just
no comparison between it and the other.
Twelve of our peers, as we have in this case, and
our alternates, to give of your valuable time, to lay
aside your own affairs, at tremendous cost to you, by
the way, and come together in a court of law to solve,
with their collective wisdom, the problems of strangers
in a civilized manner, it’s so amazing and awesome
that it’s almost impossible to express the thanks to

App. 75
which you are due, and the respect that you deserve, so
I’m going to say once again – I’ve said it many times
before to juries – thank you, for myself, for my young
partner Mark Hatfield and our staff. You deserve our
thanks and our respect for what you’ve done in this
case. You have listened to the complicated evidence
and have returned your verdict. “Verdict” means to
speak the truth, and for this case your verdict is the
truth. We accept it. It is the truth. We do not criticize
it. In England they have a saying that [116] every man
must do his duty. You have done your duty to this court
with your verdict, and you deserve our thanks and respect.
The person whom we defend, Mr. Billy Raulerson,
is guilty of committing three murders in Ware County,
Georgia, by your verdict. That is the truth. I do not
speak of the other crimes to you. These will be taken
up by Judge Cheatham, who will assess an appropriate
sentence, and I’m sure that sentence, those sentences,
will be of long duration. You are only concerned with
the three homicide cases that you have declared to be
murder. Yet we’ve got to ask you another task to perform, and it may be the most formidable of all, because
you must pass sentence upon Billy Raulerson for these
three murders of which he is guilty. Does he live or does
he die for these acts, and that’s a decision you have got
to reach in this case.
Mr. Currie has argued that you should reach down
into the basest of your instincts, out of vengeance, to
punish him. I would like to seek another way. I’m not
going to attempt to put into words the grief that Joy

App. 76
and Gene Dixon have and will suffer for the loss of
their daughter, or that of Kathy and Ray Hampton for
the loss of their son, or that of Laurie and Chris Taylor
for the loss of their mother. Words can’t express the
kind of grief that [117] they must have, and we grieve
with them for their loss.
I apologize on behalf of myself and on behalf of my
partner for the acts of Billy Raulerson that caused
their loss. I apologize to you and to them, and yet there
is nothing else I can do, and nothing Mr. Hatfield can
do, or Mr. Currie can do, or this jury can do, not even
Judge Cheatham, with all his wisdom and power, can
do anything to bring back these loved ones, to undo
what has been done.
So how do you make Billy Raulerson pay for what
he’s done? How do you make him pay for his crimes,
compensate these people for their great losses that he’s
caused them? How do you do that? Do you take a fourth
life to pay for the three that were taken? I can’t justify
anything about the three lives, I can’t justify their being taken, nor can I justify the taking of a fourth life,
which is what you are asked to do.
Go back and look at the circumstances of Billy
Raulerson’s life, the way he was raised, this dysfunctional family, parents that fought like animals with
each other; an alcoholic father who taught him to mind
with blows of his fists to his head, who taught him how
to drink alcohol when he was 10 years old, who taught
him to steal for food for them to live on. What kind of
chance has he had? This is to a boy whose mind has

App. 77
never [118] developed, that was never capable of maturing like yours and mine, the mind of a 12-year-old.
That’s undisputed in this case. What chance did he
have? Isn’t he a victim, too?
Your verdict declares that he is not legally retarded. I understand that, we accept that verdict, but I
cannot help but believe that in your deliberations, that
you did not take time enough to consider his mental
condition. I think you gave that the same consideration
that you gave to the facts on which you based your verdict of guilty. These murders were senseless, entirely
without motive or reason, you think about it, and can
only be understood as the product of a mind that, if not
retarded, as you have said, nevertheless never developed to maturity, as yours and mine. Even Mr. Currie
has argued this. The evidence that he put up demonstrates it. Even if he is not retarded, as your verdict
has said, he still has not got a mind that is like a grown
person, an adult. So I return to my question. He may
not be legally retarded, but his acts are the acts of a
sick mind, which were not entirely his fault.
You are going into the jury room to consider one
thing, and I ask one more time the question: How do
you punish Billy Raulerson? How do you make him
pay? You have three alternatives. You can have him
put to death. [119] That’s the most extreme. You can
have him imprisoned for life, with parole, which, with
your verdict in these crimes, I consider out of the question. Or you can have him imprisoned for life without
parole, and I wouldn’t ask you do to less than that, because this man should never be on the streets or the

App. 78
roads or the sidewalks of this community, or his community or any community, for the rest of his life, and
you have the way of attending to that, you have a way
of fixing it that way.
He will pay with his life if you so will it, but that
means another killing to pay for these killings, an act
forbidden by our biblical law, the law of Moses, thou
shall not kill, or you can punish him without doing violence to your own conscience, because you’re going to
have to live with this verdict, live with it for the rest of
your life. Life without parole, that’s an entire lifetime
of imprisonment. I hope that we have reached the point
in our civilization and development of civilization that
we can forgo the Old Testament teaching which demanded a life for a life, a tooth for a tooth, an eye for
an eye, and turn to the New Testament words of Jesus
Christ, who taught us love and compassion as a way of
life. What good will it do to have Billy Raulerson put to
death?
Mr. Currie says that it’s his own doings, and he
[120] might go to his death for his acts which were his
own doings, but you are the instrument whereby he
will go if he is put to death. If you had no other way to
fully protect the public, if you had another way to heal
his sick mind or to return the ones that he has taken
away, I’d say do it, in a flash. But it won’t do it. Putting
him to death will not bring back those loved ones of the
Hamptons and the Taylors and the Dixons. It’s not going to bring them back to this earth and make them
breathe again or live again. It’s not going to heal his

App. 79
sick mind, and it’s certainly not going to be in a position to help the public.
There will be those among you who are going to
make very severe demands for the death penalty to be
imposed in this case. There will be some of you who are
going to be reluctant to add another death to the ones
that cannot be recalled. Each of you must make your
own judgment. You will recall the poll of the Judge to
the jury, and the poll will have to be done again. Each
one of you has got to make an individual choice and say
this was my verdict then and this is my verdict now.
Don’t let someone substitute for you their choice, whatever their arguments might be. It’s your choice and
yours alone, and each one of you, when you are polled,
are going to have to reply that the verdict is yours or it
cannot stand.
[121] I implore you with all my heart, do not recommend the death of Billy Raulerson. A sentence of
imprisonment for life without parole will serve every
purpose that a death penalty or a death sentence will
serve, and will give your soul everlasting peace. The
Judge will tell you life without parole means just what
it says. He will never be paroled. You don’t ever have to
worry about someone in Atlanta saying, “Billy, you can
go home now,” or “Billy, you can be free in the public
now,” because he won’t have that right.
You are asked to give no mercy to the victim – to
the defendant in this case because he didn’t give mercy
to them. He has no soul and no heart, according to Mr.
Currie. What Mr. Raulerson has is no mind, and you

App. 80
can’t expect the same thing of him that you’d expect of
someone with an adult mind as you have and maybe I
have. He appeals to the basest of feeling within your
very soul when he says go out and take vengeance
against Billy Raulerson. These are the kind of people
that Christ was talking about when He was speaking
of love and compassion. “Vengeance is mine, saith the
Lord,” and he will be punished, Billy Raulerson will be
punished. The Lord will exact vengeance, whatever
vengeance that he deserves, and you do not have to live
the rest of your life with his death on your hands.
[122] I implore you, bring in a verdict in this case
that will at least be constructive and not destructive.
Bring in a verdict that you can live with. You’ve done
so much with this case and so much for this community. Billy Raulerson is not a factor in this community
or in the community where he lived any longer, but
putting him to death is not the answer. Putting him to
death or putting anyone to death, it will never be the
answer. There are some of you – You have said you believe in the death penalty, but do you believe in it in
every case? If it could do some good, I’d be right along
with you and say use it, but it’s not going to do any
good. It’s not going to redo or undo anything that’s been
done.
I’m not going to say to you that it’s the worst thing
that you could do, but if he’s in prison for life without
parole and can never get out, he’s going to think about
it every day, and every hour of that day and every minute of every hour, he’s going to think of and live with
what he’s done. Death might be the easier punishment,

App. 81
but it’s my responsibility to try my best to save his life.
I hope we’ve done that.
I’m not going to argue or belabor this point any
further. The Judge is going to give you the charge
which you will listen to, and you will find out in listening to that charge that you are the sole judge of what
you’ll do. [123] You can give a life sentence or life without parole with or without a reason, or for no reason,
or just because you feel that way and that’s the way
you want to do it. You don’t have to give the electric
chair. The law is not designed so that you have to give
the electric chair or that you’ve got to take the punishment of death or assess the punishment of death. You
may do so, but when you do so, the law requires that
you put your signature to it, that you put your name to
it, and that you’ve got to live with that for the rest of
your life. I don’t think all of you want to take the life of
this young man. Don’t let someone talk you out of that
conviction back there in the sanctity of your jury room.
You bring in the verdict that speaks your mind even if
you are the only one sitting on this jury that believes
it.
I thank you for your time and attention, and I invite your attention to Judge Cheatham. Thank you.
(END OF FINAL ARGUMENT BY MR. WILSON)
THE COURT: Members of the jury, I am required to take up one short matter with the attorneys.
I’m going to have you to step out for a minute. Then I

App. 82
will bring you back and give you the final charge of the
Court.
(THE JURY WITHDREW AT 11:30 A.M.)
THE COURT: Mr. Currie, since you made no
objections during the final argument, I assume you
have none now.
*

*

*

[125] (JURY PRESENT – 11:37 A.M.)
(Reporter’s Note: Charge of the
Court given by Judge Cheatham
standing at the podium before
the jury.)
THE CHARGE OF THE COURT
THE COURT: Members of the jury, I can tell
you at this stage I am going to send out with the foreman a complete charge that I am going to give you so
you will have that with you for reference purposes, but
if there is something you don’t understand, don’t hesitate to let the deputy sheriff know, and we will bring
you back out here and try to clear it up. If you want to
make notes, that’s fine, just to bring up a point later,
but you probably don’t have to make such extensive
notes as you would if I were not going to send it out
with you.
Now, members of the jury, the defendant in this
case, Billy D. Raulerson, has been found guilty of three
murders, and it now becomes your duty to determine,

App. 83
within the limits prescribed by law, what punishment
will be [126] imposed for each of these offenses. In arriving at this determination, you are authorized to consider all of the evidence received here in court in both
stages of this proceeding, presented by the State and
the defendant throughout the trial before you, unless
the Court has previously instructed you to consider
certain evidence introduced by the State for a limited
purpose, in which event – Ordinarily you would not be
allowed to consider this in determining punishment.
However, I have allowed this evidence – that is, about
the similar transaction, the burglary of the barber’s
home – I’ve allowed that to be introduced as actual evidence in this phase of the trial, so you will be able to
consider it.
Now you shall also consider the facts and circumstances, if any, in extenuation, mitigation, and aggravation of punishment. Mitigating or extenuating facts
or circumstances are those which you the jury find do
not constitute a justification or excuse for the offense
in question, but which, in fairness and mercy, may be
considered as extenuating or reducing the degree of
moral culpability or blame. Aggravating circumstances
are those which you the jury find to increase the guilt
or the enormity of the offense, or add to its injurious
consequences.
Members of the jury, under the laws of this state,
a [127] person found guilty of murder shall be punished by death, or life imprisonment without parole,
or life imprisonment. Under our law, a sentence of
death or life imprisonment without parole shall not be

App. 84
imposed unless the jury finds, in writing, at least one
or more statutory aggravating circumstances, and next
fixes the sentence of death or life without parole in its
verdict.
Under the law of this state, the following may constitute aggravating circumstances in this case: Number one, where the offense of murder was committed
while the defendant was engaged in the commission of
another capital felony, or aggravated battery, and in
this connection, I charge you that the offense of murder
is a capital felony under our law; and the second one,
where the offense of murder was committed while the
defendant was engaged in the commission of a burglary; the third one, where the defendant committed
the offense of murder for himself or for the purpose of
receiving money or any other thing of monetary value;
the next, kidnapping with bodily injury; and the last,
where the offense of murder was outrageously or wantonly vile, horrible or inhuman, in that it involved depravity of mind, or torture to the victim prior to the
death of the victim, or aggravated battery to the victim
prior to the death of the victim. The State contends
that one or more of the aggravating circumstances I
have [128] outlined apply to each of the murders in this
case. I will be more specific about the application of
these aggravating circumstances later in this charge.
Suffice it to say at this point that the State has the
burden of proving aggravating circumstances, if any,
for each murder beyond a reasonable doubt.
The State contends that each of the offenses of
murder in this case was outrageously or wantonly vile,

App. 85
horrible or inhuman in that it involved torture, or depravity of mind, or aggravated battery to the victim.
The State has the burden of proving statutory aggravating circumstances beyond a reasonable doubt, as I
have said, as to each murder.
With reference to the aggravating circumstance
that each murder was outrageously or wantonly vile,
horrible or inhuman in that it involved depravity of
mind, or torture to the victim prior to the death of the
victim, or aggravated battery to the victim prior to the
death of the victim, I charge you that aggravated battery occurs when a person maliciously causes bodily
harm to another by depriving that person of a part of
his or her body by rendering a part of the person’s body
useless, or by seriously disfiguring the person’s body or
a body part. In order to find that the offense of murder
involved aggravated battery, you must find that the
bodily harm to [129] the victim occurred before death.
Torture occurs when a living person is subjected to
the unnecessary and wanton influence (sic) of severe
physical or mental pain, agony or anguish. Besides serious physical abuse, torture includes serious sexual
abuse, or the serious psychological abuse of a victim
resulting in severe mental anguish to the victim in anticipation of serious physical harm. You would not be
authorized to find that the offense of murder involved
torture simply because the victim suffered pain or
briefly anticipated the prospect of death, nor would
acts committed upon the body of the deceased victim –
let me state that again – nor would acts committed
upon the body of a deceased victim support a finding of

App. 86
torture. In order to find that the offense of murder involved torture, you must find that the defendant intentionally, unnecessarily and wantonly inflicted severe
physical or mental pain, agony or anguish upon a living victim.
Depravity of mind is a reflection of an utterly corrupt, perverted or immoral state of mind. In determining whether the offense of murder in this case involved
depravity of mind on the part of the defendant, you
may consider the age and physical characteristics of
the victims, and you may consider the actions of the
defendant prior to and after the commission of the
crime. [130] In order to find that the offense of murder
involved depravity of mind, you must find that the defendant, as a result of the utter corruption, perversion
or immorality, committed aggravated battery or torture upon a living person, or subjected the body of a
deceased victim to mutilation or serious disfigurement
or sexual abuse.
You would not be authorized to return a finding of
this statutory aggravating circumstance unless you
are convinced beyond a reasonable doubt not only
that the murder involved torture or depravity of mind
or aggravated battery to the victim, but that the murder was also outrageously or wantonly vile, horrible or
inhuman. Now should you be convinced beyond a reasonable doubt of the existence of this statutory aggravating circumstance, then your verdict should reflect
your findings, if you so find, that the murder was outrageously or wantonly vile, horrible or inhuman. Your
verdict should also reflect your findings, if you so find,

App. 87
that the murder involved at least one of the following
– torture, depravity of mind, or aggravated battery to
the victim – and your verdict should specify which of
these was involved in the murder.
Now whether or not any one or more of the statutory aggravating circumstances which I have just
given to you in charge exist beyond a reasonable doubt
in this case, is a matter solely for you the jury to decide
and determine [131] from the evidence in this case.
When you retire to begin your deliberations as to the
penalty to be imposed in this case, you will be given a
written copy of these statutory instructions that I have
said to be used by you during your deliberations. I caution you and instruct you, however, that such written
instructions are not evidence, and they are not to be
considered by you as evidence in this case. They are
merely and solely for the purpose of aiding you in remembering these statutory instructions which the
Court has given you in charge, and are sent out with
you for that purpose alone and no other.
Now you set the penalty to be imposed – Excuse
me, let me start over. You may fix the penalty at life in
prison for any reason. You set the penalty to be imposed at life imprisonment. It is not required and it is
not necessary that you find any extenuating or mitigating facts or circumstances in order for you to return
a verdict setting the penalty to be imposed at life imprisonment. In other words, you do not have to find aggravating circumstances to give life in prison. Whether
or not you find any extenuating or mitigating facts or

App. 88
circumstances, you are authorized to fix the penalty in
this case at life imprisonment.
If you find from the evidence, beyond a reasonable
doubt, the existence in this case of one or more [132]
aggravating circumstances as given to you in charge
by the Court, then you would be authorized to recommend the imposition of a sentence of death, but you
would not be required to do so. If you should find from
the evidence in this case, beyond a reasonable doubt,
the existence of one or more aggravating circumstances as given to you in charge by the Court, you
would also be authorized to sentence the defendant to
life in prison. You may fix the penalty at life imprisonment, if you see fit to do so, for any reason satisfactory
to you, or without any reason.
Members of the jury, you may return any one of
these three verdicts as to the penalty in this case; life
imprisonment, life imprisonment without parole, or
death. Under our law, life imprisonment means that
the defendant will be sentenced to incarceration for the
remainder of his or her natural life. However, he will
be eligible for parole during the term of that sentence.
If you decide to impose such a sentence of life imprisonment, you would return a verdict which reads, “We,
the jury, fix the penalty at life imprisonment.”
Under our law, life imprisonment without parole,
without parole, means that the defendant shall be incarcerated for the remainder of his natural life and
shall not be eligible for parole. If you decide to impose
a sentence of life imprisonment without parole, you

App. 89
would [133] return a verdict which reads, “We, the jury,
find beyond a reasonable doubt that statutory aggravating circumstances do exist in this case.” Then you
would set out, in writing, the aggravating circumstance or circumstances, singular or plural, which you
may find to exist beyond a reasonable doubt from the
evidence in this case, and upon which I have instructed
you. Then you would fix the sentence at life imprisonment without parole.
Now if you decide to impose a sentence of death,
you would return a verdict which reads, “We, the jury,
find beyond a reasonable doubt that statutory aggravating circumstances do exist in this case.” Then you
would set out in writing such aggravating circumstance or circumstances which you may find beyond a
reasonable doubt from the evidence in this case and
upon which I have instructed you. Then you would fix
the sentence at death. If this is your verdict, then the
defendant would be sentenced to be put to death in the
manner provided by law.
I am going to send out with you three separate
verdict-as-to-sentencing forms. I’m going to go over the
first one in some detail with you, because the rest are
somewhat repetitious except as to aggravating circumstance. This one says aggravating circumstance, or
[134] the plural, if you choose, as to count one, murder
of Charlye Dixon. It says, Select one. Now under Roman numeral I, and there is a blank in front of it, the
sentence would be, “We, the jury, find that aggravating
circumstances do not exist in this case.” Then in parentheses it says, Proceed to section two and fix the

App. 90
sentence at life imprisonment. In other words, if you
find that there are no aggravating circumstance or
-stances, then the automatic sentence is life imprisonment.
Roman numeral II says, “We, the jury, find beyond
a reasonable doubt that aggravating circumstances do
exist in this case as marked on the attached sheet.”
Then in parentheses it says, Now proceed to Section II
and fix the sentence that you’ve deemed appropriate.
If you find that aggravating circumstances do exist, then you can select one of the three options that I
have explained to you before; life imprisonment, life
without parole, or death. This should be a unanimous
decision. Each of these have to be unanimous decisions,
and they have to be signed and dated by your foreperson.
Now I have attached to this the aggravating circumstances in this particular case, murder, that the
State contends exist. It is up to you to determine
whether they do. You may find that the entire aggravating [135] circumstance – There are three in this instance, and I’ll go over them in a minute. You may find
that the entire aggravating circumstance exists, or you
may find that the entire circumstance does not exist.
The third possibility is that you may find that a part of
it does not exist but the rest does exist. So I am going
to ask you, if you reach that conclusion, that you strike
through, you mark through, the one that does not exist,
and you check, put a check mark, by the one that does
exist. Put a check in the blank part in front.

App. 91
For example, the first one here is, The murder of
Charlye Dixon was completed (sic) while the offender
was engaged in the commission of another capital felony, namely the murder of Jason Hampton. Number 2
is, The murder of Charlye Dixon was committed for the
purpose of receiving money or any other thing of value.
Those two are not capable, really, of editing, but the
third one is. You either find it or you don’t find it in the
first two. The third one is, The murder of Charlye
Dixon was outrageously or wantonly vile, horrible or
inhuman in that it involved torture, depravity of mind,
or an aggravated battery. You have several possibilities
there, and after considering the evidence in this case,
if you find that all of these possibilities do not exist,
you strike through the ones that you find do not exist,
and of course [136] in each of these instances you can
find that there was no aggravating circumstance, and
in each one you can find that the total circumstances
exist as to each one.
On the next one, as to count two, that is, the murder of Jason Hampton, I’m not going through the first
page because it is the identical procedure that I just
went through with you, but the aggravating circumstances in this particular one are that the murder of
Jason Hampton was committed while the offender was
engaged in the commission of another capital felony,
namely, the murder of Charlye Dixon and/or the kidnapping with bodily injury of Charlye Dixon. Here you
decide whether or not both of those exist, or one or none
of them exist.

App. 92
The second one is, The murder of Jason Hampton
was committed for the purpose of receiving money or
any other thing of value. You decide that, all of this,
beyond a reasonable doubt. The third one is the one
about outrageously or wantonly vile, and I won’t go
through that one again, because you have options
there that you can select or not select, as you see fit.
This also needs to be unanimous and signed by the
foreman and dated by the foreman.
The third one involves the murder of Gail Taylor,
and the front page is identical. The second page has the
three aggravating circumstances that the State contends [137] are involved in this particular case, and 1
is, The murder of Gail Taylor was committed while the
offender was engaged in the commission of burglary.
You decide whether or not that is an aggravating circumstance. Number 2, The murder of Gail Taylor was
committed for the purpose of receiving money or any
other thing of value. You decide that the same way. The
third is the one with the “outrageously vile and inhuman” that I have discussed with you, and the same rationale goes with selecting this one, that you can tailor
these to your findings.
Now, members of the jury, in all of these that I
have said – I know I’m being redundant here. Each of
these must be unanimous, and they must be signed
and dated by the foreman.
I caution you and instruct you that anything the
Court said or did in its rulings or otherwise, at any
time during this case, was not intended and should not

App. 93
be construed by you or considered by you as any hint,
suggestion or opinion by the Court as to what penalty
should be imposed in this case. Whatever penalty is to
be imposed, within the limits of the law, as I have instructed you, is a matter solely for you the jury to determine, and if the Court has made any remark, or
done or failed to do any act which may have caused you
to believe that the Court was expressing an opinion, I
[138] instruct you not to consider it, and you should
disregard it completely.
Now your verdict as to penalty, as I have said,
must be unanimous, in writing, dated and signed by
the foreperson, and returned and read in to open court.
The Court has prepared for you a paper entitled
“Verdict as to Sentencing,” stating the name style of
this case – and style of this case, which contains all of
the forms of the verdicts as to the penalty which I have
instructed you that you may return in this case. You
may, if you care to do so, return your verdict as to the
penalty, whatever it may be, on this paper by completing the particular forms of the verdict you wish to return in this case, and by having your foreperson date
and sign the particular form of verdict, whichever it
may be. The forms listed on this paper which are not
used by you should be struck out or “ ‘x’d” out. In other
words, anything that you do not find, I want you to
make it clear to us by striking through it or “x’ing” it
out, or something of that nature, leaving only the particular form of verdict that you decide upon, dated and
signed by your foreperson.

App. 94
Now, members of the jury, you may retire and
make up your verdict as to the penalty. The sheriff is
going to take you to T.G.I.F. today, and when you come
back, you [139] can begin your deliberations, or if you
wish to begin them before he takes you, you may do
so. I’m sorry, but the two alternates are going to have
to be excused at this time and taken to another place
by the sheriff. Thank you. You may step out of the
room.
(THE JURY WITHDREW AT 12:00 NOON)
(JUDGE CHEATHAM RETURNED TO THE
BENCH)
THE COURT: Attorneys, we have to revisit
the Uniform Appeal Procedure just briefly here. We are
to review part Roman numeral III, C. and D., which we
have done before. I will ask you attorneys if in reviewing that, either the prosecution or the defense, have
noted anything that you feel needs to be brought up at
this stage of the proceedings. I won’t go through them
again with you. If you have none, I will move on to the
next area.
MR. HATFIELD: Judge, we’d just like to renew the previous objections we stated to the Court’s
charge and the previous objections to the aggravatingcircumstance evidence in this case which we discussed
earlier this morning, –
THE COURT:

Yes, sir, fine, that will be –

App. 95
MR. HATFIELD: – and we’d like to reserve
those issues as well for motion for a new trial and for
notice of appeal to be considered.
THE COURT:
be noted.

What you have just said will

